<html>
<title> - INSPECTORS GENERAL: INDEPENDENCE, ACCESS AND AUTHORITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




         INSPECTORS GENERAL: INDEPENDENCE, ACCESS AND AUTHORITY

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 3, 2015

                               __________

                            Serial No. 114-4

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-972 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                              
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
 Jennifer Hemingway, Government Operations Subcommittee Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 3, 2015.................................     1

                               WITNESSES

Hon. Michael E. Horowitz, Inspector General, U.S. Department of 
  Justice
    Oral Statement...............................................     5
    Written Statement............................................     8
Hon. Arthur A. Elkins, Jr., Inspector General, U.S. Environmental 
  Protection Agency
    Oral Statement...............................................    14
    Written Statement............................................    16
Ms. Kathy A. Buller, Inspector General, U.S. Peace Corps
    Oral Statement...............................................    22
    Written Statement............................................    24

                                APPENDIX

Letter for the record submitted by Mr. Chaffetz-August 5, 2014 
  letter to the committee from 47 Inspectors General.............    76
Letter for the record submitted by Mr. Chaffetz-February 3, 2015 
  letter to the House Appropriations Committee from Michael E. 
  Horowitz, DOJ IG...............................................    84
Letter for the record submitted by Mr. Chaffetz-January 30, 2015 
  letter to Chairman Chaffetz from Ranking Member Cummings 
  requesting a meeting...........................................    88
Table 2-FY 2014 General Provisions not continued in F............    89
Letter for the record submitted by Mr. Meadows-January 21, 2015 
  letter to Tim Delaney, CIGIE, from committee members...........    90

 
         INSPECTORS GENERAL: INDEPENDENCE, ACCESS AND AUTHORITY

                              ----------                              


                       Tuesday, February 3, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:17 a.m. in 
Room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
(chairman of the committee) presiding.
    Present: Representatives Chaffetz, Mica, Jordan, Walberg, 
Amash, Gosar, DesJarlais, Gowdy, Farenthold, Lummis, Massie, 
Meadows, DeSantis, Mulvaney, Buck, Walker, Hice, Russell, 
Carter, Grothman, Hurd, Palmer, Cummings, Maloney, Norton, 
Clay, Lynch, Cooper, Connolly, Cartwright, Kelly, Lawrence, 
Lieu, Watson Coleman, Plaskett, DeSaulnier, and Boyle.
    Chairman Chaffetz. Good morning. The Committee on Oversight 
and Government Reform will come to order. Without objection, 
the chair is authorized to declare a recess at any time.
    Inspectors General serve the American taxpayers as the 
first line of defense against waste, fraud and abuse by 
government agencies, and to that end, Congress has given them 
unfettered access to agency records. The Inspector General Act 
in Section 6(a) says clearly, ``is authorized to have access to 
all records, reports, audits, reviews, documents, papers, 
recommendations, or other material.'' The Act directs all 
records be made and be given to the IGs.
    We appreciate you being here. Thank you very much.
    I'd like to yield part of my time here to the gentleman 
from North Carolina, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. And thank each of you 
for being here. Obviously every day, some 13,000 employees that 
work with each one of you go to work to protect the American 
taxpayer. Really they're the first line of defense when 
American taxpayers feel like they are not getting treated 
fairly, and that's what this is about, being treated fairly; 
the IGs and the 13,000 people that work with them are there. 
The chairman said it well. This is about all records and making 
sure that all records are available to you to do the work that 
is so important to the American taxpayer. Yet we find that, I 
guess, last August that 47 Inspectors General signed saying 
that they're not getting all the documents to do the work that 
you need to do.
    We had a hearing, and again today we have another hearing, 
because we have not had the progress that we should have seen. 
And so I look forward to hearing from each one of you how we 
can make it any more clear that the Inspectors General need to 
be able to do their job, it needs to be done without 
relationship to--whether it is Democrat, Republican or 
unaffiliated, it needs to be done on behalf of the American 
taxpayer. And I thank the chairman for making this our first 
official hearing. And I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I want to thank the men and women who serve in these 
various offices and agencies. There's more than 13,000 people 
who go to work every day. They're supposed to be able to access 
all the documents without exception. There aren't exceptions. 
The law is crystal clear. They serve as watchdogs, they serve 
as impartial people who go and look at these documents to 
figure out what is truly happening and look under the hood. 
They're essentially the internal auditors. We count on them and 
rely on them. If the Inspectors General can't do their job, we 
can't do our job, and this is why it is imperative and this is 
why I'm proud to have this as my first hearing as chairman of 
this committee.
    Nothing is supposed to be off limits. The committee needs 
to send a strong message we support these hardworking men and 
women to access the information they need to fulfill their 
mission of holding government accountable.
    Now, before I end, I want to address a letter that Ranking 
Member Cummings sent to me this past Friday. I appreciate him 
sending it to me. It was done in the right spirit. I'm going to 
work with him and cooperate with him, and I appreciate that. 
The letter that Mr. Cummings sent to me says that we--and 
requests that we sit down with the EPA, the EPA inspector 
general and the FBI to broker a resolution in a dispute between 
the three entities.
    Again, I appreciate that invitation, I'm happy to be part 
of that meeting. But the letter that was given to me really 
drives home the point. The EPA inspector general should not 
have to lean on a Member of Congress to broker a deal to try to 
negotiate what kind of documents we need to get. The Act is 
crystal clear. We are going to go over that today.
    And as I conclude here, I'd like to enter into the record--
I'd ask unanimous consent to enter into the record August 5th, 
August 5th of 2014, 47 of the 72 Inspectors General sent a 
letter, and this issue has not been resolved. I ask that this 
be inserted into the record, as well as a letter that was 
brought today by Mr. Horowitz. it is dated February 3rd, 2015. 
Mr. Horowitz, as you give your opening Statement, and we'll 
give you a little extra latitude, if you could perhaps describe 
in your own words this letter that you delivered to us here in 
Congress today. And I'd also ask unanimous consent that the 
letter of January 30th, 2015, from Mr. Cummings to myself also 
be entered into the record. Without objection, so ordered.
    Chairman Chaffetz. With that, I yield back my time and 
recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I want 
to thank you for holding this hearing today. I want to thank 
all of our Inspector Generals and I want to thank the people 
that work with you for what you do every day.
    Our Inspector Generals do a phenomenal job on behalf of the 
American people, they make our government work more effectively 
and efficiently, and they save billions of taxpayer dollars. So 
I'm glad we are kicking off our committee's first hearing of 
the 114th Congress on this very critical issue.
    I welcome all the IGs who are here today, including those 
in the audience and those testifying. Inspector general Buller 
from the Peace Corps, inspector general Elkins from the 
Environmental Protection Agency, and inspector general Horowitz 
from the Department of Justice.
    Mr. Horowitz, I also want to congratulate you on your new 
post as the chairman of the Council of the Inspectors General 
on Integrity and Efficiency. It is an honor to have all of you 
here today.
    You have no greater supporter in the Congress than me. The 
work you do is very critical, not only to Federal agencies, but 
to this committee. We rely on you for your investigations, your 
audits, and recommendations and advice. Your work can be very, 
very challenging. You are agency employees, but your job is to 
root out waste, fraud and abuse in these agencies. You stand 
apart. And in order to fulfill your obligations under the 
Inspector General Act, you need to be independent and you need 
access to information.
    So I understand your frustration when you are not getting 
the documents you request. I empathize with you when agencies 
cite various other Federal statutes with competing interests 
and the system seems to slow to a crawl. You are just trying 
simply to do your jobs, and without information, it is 
extremely difficult to do so.
    I do not want to downplay the interests of the agencies 
either; very, very important. They are sometimes put in very 
difficult positions. Congress orders them to protect 
information from unauthorized disclosure, and we are not always 
clear about whether that includes IGs too. For example, after 
reports of Peace Corps volunteers being sexually assaulted, 
Congress passed the Kate Puzey Act to protect whistleblowers 
and help these victims. Based on the law, the Peace Corps 
withheld the names of victims as well as specific details about 
their sexual attacks, while the IG wanted access to this 
information under the IG Act. Working together, they developed 
a MOU that fulfills both goals. It allows the agency to protect 
the information, and it establishes a process for the IG to 
gain access to this information in certain cases. The MOU is 
not ideal and it is frustrating that the IG even had to sign 
one. But the fact is is that the IG is now getting access to 
the information it needs to do its job. That's real. That's 
happening.
    Personally, I have always believed that the best course is 
to try to help the parties resolve these competing statutory 
interpretations if possible. I believe that it is preferable to 
coming back to Congress and seeking a change in the law. This 
is not easy and it sometimes takes hard work, but that is 
exactly what I have directed my staff to do. We could sit on 
the sidelines and do nothing, or we could get into the effort 
and try to make things work.
    For example, at our last hearing in September, we heard 
about a similar disagreement between the EPA and the IG about 
Federal statutes governing Homeland Security-related 
investigations. The IG wanted access to this information under 
the IG Act, while the EPA cited other statutes that they 
believed required them to work through the FBI. On that issue, 
my staff worked for many months, meeting with each party to 
address their concerns, and I believe that we are now very, 
very, very close to a resolution.
    The leaders of these offices all seem to have an agreement 
in principle, but the FBI senior leadership field officers and 
agents need to fully commit. Last Friday I wrote to the 
chairman, and he referenced that letter, requesting that we 
call these agencies as soon as this week to get us past the 
finish line, and I sincerely hope we can do it.
    Of course, on some occasions, we have to draw lines. At the 
Department of Justice, for example, the IG has waited for 
months for the Office of Legal Counsel to render an opinion on 
statutes governing their document dispute with the IG over 
grand jury and other sensitive investigative information. To 
the agency's credit, they said they would support a legislative 
fix if necessary, but this ongoing delay is simply 
unacceptable. We need a resolution and we need a resolution 
soon.
    Finally, in some cases, it may not be possible to salvage a 
workable outcome. For example, Representative Henry Waxman, who 
served previously as the ranking member of the Energy and 
Commerce Committee, worked very hard to try to address 
management deficiencies at the Chemical Safety Board. Although 
he made a number of very sensible recommendations, we heard at 
our hearing last September that the CSB chairman failed to 
adequately address these problems, and in fact, had created a 
dysfunctional work environment.
    Mr. Chairman, I want to thank you once again for holding 
this hearing. I want to thank you also for agreeing to sit down 
with me and other--these IGs from the three agencies to see 
what we can work out, but again, I agree with you, we have to 
find solutions to this problem so that that does not have to 
happen over and over again. But, again, I thank you, and I 
yield back.
    Chairman Chaffetz. I thank the gentleman. Thank you.
    I will hold the record open for 5 legislative days for any 
members who'd like to submit a written Statement.
    Prior to my recognizing our three panelists today, we have 
a number of people in the audience who either serve as an 
inspector general or work for one of the Inspectors General. 
I'd actually ask you to rise. I'd like to recognize you and, A, 
thank you for your service, and just understand your support 
and your being here today. If you wouldn't mind standing for a 
moment, I'd appreciate it. Thank you for being here.
    [applause.]
    Chairman Chaffetz. We thank you for your service, we thank 
you for your commitment to this Nation, and we are trying to 
hold this hearing so that you can better do your job and get 
back to work and do the things that you need to do and have 
access to the records that we believe under the law you should 
be able to have without question.
    We are now going to recognize our panel of witnesses. The 
first is the Honorable Michael E. Horowitz, who's the inspector 
general of the United States Department of Justice. He also is 
the new chairman of the Council of Inspectors General on 
Integrity and Efficiency, often referred to as CIGIE. The 
Honorable Arthur A. Elkins, Jr. is inspector general of the 
United States Environmental Protection Agency; and Ms. Kathy 
Buller--close enough? I want to get it right, sorry--is 
inspector general of the United States Peace Corps.
    These three people have testified before this committee 
previously, and we welcome you all, but pursuant to committee 
rules, all witnesses will be sworn in before they testify, so 
if you would please rise and raise your right hand. Do you 
solemnly swear or affirm that the testimony you are about to 
give will be the truth, the whole truth, and nothing but the 
truth?
    Thank you. Let the record reflect that all witnesses 
answered in the affirmative.
    We are going to allocate 5 minutes for each of your opening 
Statements. We'll be pretty liberal in that policy. And I've 
asked Mr. Horowitz, who brought a letter today that he had sent 
to Members of Congress, if you could take a few extra moments 
or minutes and explain in your own words that letter as well--
it should be on each member's desk--I would appreciate that. So 
we'll now recognize Mr. Horowitz.

                       WITNESS STATEMENTS

             STATEMENT OF HON. MICHAEL E. HOROWITZ

    Mr. Horowitz. Thank you, Mr. Chairman, Congressman 
Cummings, members of the committee. Thank you for having me 
testify here today and thank you for the strong bipartisan 
support of this committee as we've discussed these issues.
    I wish I could report to you that since we last appeared 
before the committee, that the concerns identified in the 
letter signed by 47 Inspectors General have been resolved. 
Unfortunately, they have not.
    My office continues to face challenges in getting timely 
access to information. For example, the FBI still maintains 
that the Inspector General Act does not entitle us to access 
certain records in the FBI's possession, such as grand jury, 
Title III electronic surveillance, and Fair Credit Reporting 
Act information, because of disclosure limitations in statutes 
other than the IG Act.
    In May 2014, in an attempt to resolve this dispute, the 
Department's leadership referred the matter to the Office of 
Legal Counsel. However, 8 months later, we are still waiting 
for that opinion. I cannot emphasize strongly enough how 
important it is that OLC issue its opinion promptly, because 
the existing procedures at the Department undermines our 
independence and puts in place a process that essentially is 
consistent with the FBI's legal position. The status quo cannot 
continue indefinitely.
    We appreciate, as I said, the strong bipartisan support 
from this committee and the Congress. Most significantly, in 
December 2014, a provision included in the Appropriations Act, 
Section 218, prohibits the Justice Department from using 
appropriated funds to deny my office timely access to records 
in its possession unless in accordance with an express 
limitation of Section 6(a) of the IG Act. While the only--while 
the law only recently went into effect, it is clear that the 
Department has taken notice of it and it has had positive 
impact. However, despite that action, the FBI continues to 
maintain its legal position. As a result, the FBI is continuing 
its costly and time-consuming process of reviewing documents 
responsive to our requests prior to producing them to us in 
order for them to determine whether we are entitled to receive 
them.
    Our reviews have been impacted by the FBI's process, and 
that production has delayed our work, including on 
whistleblower retaliation investigations, which we are charged 
to undertake and review.
    As we are--as we are directed in Section 218, today the--
our office provided the Appropriations Committee with a letter 
and cc'd our oversight committees, including this committee, 
regarding two whistleblower matters where we have not obtained 
timely production to those records, and I'll describe that 
letter in a moment.
    It is long past time to resolve this legal dispute. The 
FBI's position contradicts the plain language of the IG Act, 
Congress's clear intent when it created our office, the FBI's 
and the Department's practice prior to 2010 of providing the 
very same categories of information to our office without any 
legal objection, court decisions by two different Federal 
district judges stating that our office could receive grand 
jury material, and the reasoning of a 1984 decision by the 
Office of Legal Counsel concluding that grand jury material 
could be provided to the Department's Office of Professional 
Responsibility. We remain hopeful that the OLC opinion will 
conclude that the IG Act entitles my office to access all 
records in the Department's possession. However, should the OLC 
should decide otherwise, I would be pleased to work with the 
committee to develop an appropriate legislative remedy.
    Let me briefly mention other areas where I think the 
ability of Inspectors General to conduct strong and effective 
oversight could be enhanced. One such area is the capacity of 
Inspectors General to obtain testimony from former agency 
employees, contractors, and grant recipients. While the IG Act 
empowers us to subpoena records from those individuals, we 
cannot require them to testify even if they have critical 
evidence. While I believe any such authority should include 
protections to ensure that it is used appropriately and only 
when necessary and does not inadvertently impair Justice 
Department prosecutions, I'm confident such protections can be 
developed while also empowering Inspectors General to carry out 
their responsibilities.
    Another area where strong and effective inspector general 
oversight could be enhanced is by enabling us to more 
efficiently obtain and match readily available information in 
furtherance of our efforts to combat fraud and misconduct. This 
information currently exists, it does not require any further 
collection of information, and Inspectors General in each 
agency already have access to it or are entitled to access it. 
The timely use of such data will better enable Inspectors 
General to identify those who improperly receive Federal 
assistance, Federal grants or contracts, or duplicative 
payments. In my view, exempting all Inspectors General from 
limitations in the Computer Matching Act would greatly assist 
our ability to ensure that Federal programs are effective and 
efficient, without undermining the purposes of that law.
    Finally, I'm aware of concerns that have been raised 
relating to the CIGIE integrity committee, including with 
respect to the timeliness of its work and the transparency of 
its efforts. One of my first meetings as chair of the CIGIE was 
with the assistant director of the FBI, who chairs the 
integrity committee in order to discuss ways to address these 
issues. OIGs must maintain the highest levels of accountability 
and integrity, and as the new chair of CIGIE, I will make it a 
top priority to improve the procedures of the integrity 
committee.
    I look forward, as I said, to working with the committee on 
these issues. And that concludes my prepared Statement. Let me 
turn, then, briefly, if I could, to the letter that we sent 
this morning, and this relates to Section 218. And as I 
mentioned in the prepared Statement which I had provided to the 
committee yesterday morning, we have had looming deadlines with 
the FBI. One of them for production was yesterday. The FBI 
informed us--and this regards two whistleblower retaliation 
investigations that we are undertaking. The FBI had made 
partial productions, they had not made complete productions, 
they informed us that they needed more time beyond yesterday to 
produce the remaining materials, they needed until the end of 
this week in one matter, until the end of next week on the 
other matter, and that they needed that time for purposes of 
reviewing the records to determine whether we were entitled to 
access to them or, in their legal opinion, not, based on 
restrictions in other statutes, in which case they would then 
have had to go and would have to go to the Deputy Attorney 
General or the Attorney General for approval to provide them to 
us.
    We discussed this matter. I had conversations until last 
night with the Department about trying to get the information 
pursuant to yesterday's deadline. The FBI believes it needs to 
continue that process because of its legal views, and as a 
result, the deadline passed last night.
    And pursuant to the Act, it is on the Inspector General's 
office to report those matters to the Appropriations Committee, 
and that is why we sent the letter. And regardless of the fact 
that, in our view, they needed this week and the following 
week, the purpose of the--of the need for that extension was 
precisely what Congress in Section 218 said was not 
permissible.
    Chairman Chaffetz. I thank the gentleman.
    [Prepared Statement of Mr. Horowitz follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Chaffetz. I now recognize Mr. Elkins for 5 
minutes.

               STATEMENT OF ARTHUR A. ELKINS, JR.


    Mr. Elkins. Good morning, Chairman Chaffetz, Ranking Member 
Cummings and members of the committee. I am Arthur Elkins, 
inspector general for the EPA and the CSB. Thank you for 
inviting me to appear before you today.
    From this seat last June, I addressed impediments to access 
at CSB. In September, I addressed broader issues of access and 
whether there is a need to strengthen or clarify the IG Act. 
Today I will report on progress and challenges that still 
remain.
    This OIG had requested documents of the CSB in the course 
of an investigation, which officials refused to provide, 
asserting attorney-client privilege. We explained that such 
denial violated the IG Act by obstructing an IGs unfettered 
access to all materials and informations available to the 
agency. Eventually, I sent a 7-day letter to CSB chairman 
Moure-Eraso. Although the CSB forwarded my letter to Congress 
as required, CSB officials continued to refuse to produce the 
documents.
    In June, both the chairman and ranking member of this 
committee instructed the CSB to provide the documents to the 
OIG. Subsequently, the CSB substantially complied. However, 
officials have yet to provide an affirmation of full compliance 
with our request. Still, the OIG was able to proceed with and 
complete our investigation.
    Last week I sent a report to President Obama, who oversees 
Mr. Moure-Eraso. That report finds there is evidence sufficient 
to support a conclusion that the chairman and two of his senior 
officials violated the Federal Records Act in implementing 
regulations by using non-governmental email systems to conduct 
official government business and not capturing those emails in 
the CSB record system.
    I would like to thank the committee for taking action in 
response to our 7-day letter, which allowed us to proceed with 
and conclude our investigation.
    In September, I reported that the EPA had asserted the OIG 
may have access to intelligence information only with the EPA's 
permission. In addition, the EPA's Office of Homeland Security 
was conducting investigative activities without any legal 
authority, thereby interfering with OIG investigations. Senior 
OIG and agency officials have now reached a theoretical 
agreement on a substantial portion of the issues, with two 
caveats: First, we are only beginning to implement the 
agreements; and second, we have not resolved the issue of OHS 
having an assigned criminal investigator. We have agreed that 
the OIG has access to all EPA activities.
    On another brighter note, Administrator McCarthy began 2015 
with a memorandum to the EPA work force addressing cooperation 
with and providing information to the OIG. She called upon the 
vigilance of EPA staff to report fraud, waste and abuse.
    Finally, in August, my office received information alleging 
an incident of serious misconduct by a senior EPA official. 
Over an approximately 5-month period, during which the agency 
placed the official on paid administrative leave, the OIG 
uncovered additional allegations of improper actions by the 
same person. OIG investigators sought to interview the official 
a second time, but the official claimed to be retiring 
immediately, and refused. In fact, the official still was 
employed by the EPA. The agency ordered the official to 
cooperate with the OIG, but as the official stalled, retirement 
paperwork was processed and the official was allowed to retire, 
cutting off the OIGs access and the agency's ability to impose 
disciplinary remedies, including termination. Other examples in 
which EPA employees refused to appear for OIG administrative 
interviews are captured in my written Statement.
    The IG Act access mandate predominantly has been applied to 
documents. It also applies to people. If an OIG needs to 
interview an employee who may have relevant information, other 
than when there is a possible criminal exposure, that employee 
is obligated to provide the information, but the Act provides 
no enforcement mechanism. I believe that this committee should 
look into the gap between what the IG Act requires and OIGs 
ability to achieve those requirements.
    In conclusion, this committee has thanked me and the OIG 
community for the work we do in protecting taxpayer funds. We 
appreciate that, but there is a disconnect between what the 
oversight committees observe and appropriations that emerge 
from Congress. Budget levels made available are impeding our 
ability to do our work. We've returned $7.33 for every dollar 
given to us in the past year. I know this is not an 
appropriations committee, but I ask for any help you can 
provide.
    Access to documents and staff rest with the agency. 
Adequate funding must come from Congress. All are necessary to 
fully accomplish our mission. Yet the OIGs have control over 
none of these. As I stated in September, the concept underlying 
the IG Act is fragile and can be likened to a house of cards. 
The removal of the cooperation card will cause the foundation 
upon which the House is built to collapse.
    Mr. Chairman, I will be pleased to answer any questions 
that you or committee members may have.
    Chairman Chaffetz. I thank you, Mr. Elkins. Appreciate it.
    [Prepared Statement of Mr. Elkins follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Chaffetz. Ms. Buller.

                  STATEMENT OF KATHY A. BULLER

    Ms. Buller. Chairman Chaffetz, Ranking Member Cummings and 
distinguished members of the committee, thank you for inviting 
me to appear before you today and allowing me to summarize my 
prepared Statement.
    As you know, our access issue stems from a sensitive and 
important subject: the Peace Corps's handling of volunteer 
sexual assault reports. So before I continue, let me emphasize 
that our push for access goes beyond our zeal for upholding the 
basic principle that transparency and accountability are the 
hallmarks of good governance. Our push for access is about 
doing everything we can to confirm that volunteers, who 
sacrifice so much when serving in remote corners of the world, 
receive the services they need when they are victims of sexual 
assault.
    Standing in our way to fulfilling that duty is a legal 
opinion drafted on July 9, 2013, by the Peace Corps former 
general counsel. That legal opinion asserts that the Kate Puzey 
Act of 2011 overrides my broad right of access to agency 
records under the IG Act.
    As a result of the legal opinion, Peace Corps established 
policies and procedures denying OIG access to information. 
These policies effectively undermined one of the key purposes 
of the Kate Puzey Act, which is to enhance OIG oversight of 
sexual assault incidents to ensure Peace Corps does not repeat 
past mistakes.
    It is worth reminding the committee that the Kate Puzey Act 
was enacted after more than 100 volunteers reported that Peace 
Corps had ignored allegations of sexual assault, blamed 
victims, and mismanaged their cases.
    Since my last testimony on September 10th, Peace Corps has 
issued revised policies and procedures that grant OIG access to 
more, though not all, information on sexual assault reports. 
Unfortunately, these revisions took place only after 2 years of 
discussions with the agency, Members of Congress, two 
congressional hearings, negative press coverage, and a hold 
being placed on a nomination of the Director, and ultimately 
the signing of a formal agreement between the agency and the 
OIG.
    My office is hopeful this agreement will give us enough 
information to fulfill some of our oversight duties, and Peace 
Corps has been responsive to our requests for information 
regarding two cases. However, I have several concerns about the 
agreement. First, I am concerned about the appropriateness of 
my office having to enter into an agreement to obtain 
information that we are entitled to by law and that we need to 
fulfill our statutory duties.
    I am also concerned that the agreement does not undo all 
the damage these policies have caused. Since the agreement was 
signed, staff remain confused on how to handle sexual assault 
cases, and staff and volunteers remain confused about when they 
can or must report information to OIG.
    Finally, I'm concerned about Peace Corps's ability to meet 
its commitments under the agreement, such as implementing a 
system that would permit OIG to review sexual assault cases 
without full access to information. Lacking such access, 
Congress would be unable to properly assess whether Peace Corps 
is adequately responding to victims.
    It is clear that despite some progress, this agreement 
remains a temporary fix and much work remains to be done to 
restore a culture where staff and volunteers communicate openly 
with the IG.
    Congress and Peace Corps have the power to solve this 
issue. Congress could take legislative action to ensure we get 
full access to agency records. The Peace Corps, for its part, 
could retract the erroneous legal opinion underlying its 
misguided policies. As long as that opinion remains in place, 
Peace Corps is free to rescind our agreement and withhold or 
delay OIG access to sexual assault reports. Moreover, its very 
existence sets a dangerous precedent whereby any agency may 
withhold information by deciding to interpret a law as 
overriding the IG Act.
    Allowing agencies to decide when they will or will not 
release information to their IG creates a clear conflict of 
interest. Not only that, it forces IGs to spend their limited 
time and resources wrangling with the agency to obtain 
information, as I have done for over 2 years. Taxpayers and 
volunteer victims of sexual assault, in particular, deserve 
better.
    While Peace Corps withdrawing its legal opinion may resolve 
our access issue, it will do nothing to help other IGs who are 
denied full access to agency records; therefore, I appreciate 
the committee's efforts to help restore our access for the sake 
of Peace Corps, volunteer victims of sexual assault, and the 
entire IG community.
    Thank you. That concludes my prepared Statement, and I'm 
prepared to take any questions you may have.
    Chairman Chaffetz. Thank you.
    [Prepared Statement of Ms. Buller follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. I'll now recognize myself for 5 minutes.
    Mr. Horowitz, help me understand what the atmosphere was 
like at the Department of Justice, and when did this change? I 
mean, this is a new phenomenon, is it not?
    Mr. Horowitz. This changed in 2010 before I became 
inspector general in response to a legal opinion issued by the 
FBI's general counsel.
    Chairman Chaffetz. So you--prior to that, you were able to 
access grand jury information, Title III electronic 
surveillance information, Fair Credit Reporting Act 
information?
    Mr. Horowitz. That's correct. My office had no objection to 
any legal access to those.
    Chairman Chaffetz. So they had been in operation to be able 
to access that information. And then what--I'm trying to get at 
the heart of what changed.
    Mr. Horowitz. I'm at a loss to look--to understand why, 
frankly. And it--when you look at it, the law did not change, 
the work we were doing didn't change. In fact, one of the 
reviews, we got credit information at the start, and then 2010 
came along and we were told we weren't going to get it anymore.
    Chairman Chaffetz. What--are you impeded doing your job on 
any other information or is it exclusive to those three issues?
    Mr. Horowitz. So far it has been those three issues, but we 
have a list of several other items where the FBI has indicated 
it believes there are problems with producing them to us as 
well.
    Chairman Chaffetz. How often do you have to negotiate what 
you are going to be able to see?
    Mr. Horowitz. It has--much like inspector general Buller 
said, it has taken far too much of my time and, frankly, it is 
taking far too much time of the leadership of various parts of 
the Department to work these out.
    Chairman Chaffetz. And this is one of the concerns, is that 
you have to go in and negotiate for this. And, Mr. Elkins, 
what's your experience with that?
    Mr. Elkins. Well, I have to agree with everybody on the 
panel here. The--the issues that--that I have been confronting 
have spanned, you know, over 5 years. And when you think of the 
expense not only in my shop, but here on the Hill, the agency, 
it is just--it is phenomenal, it just doesn't make any sense, 
but I've had the same sorts of issues.
    Chairman Chaffetz. Well, what percentage of the information 
do you need to come to a complete conclusion?
    Mr. Elkins. I need all of the information. To the extent 
that I--to the extent that there's any information that's 
missing, then I can be assured that, you know, I'm making a 
good decision. I need all the information. And the IG Act 
envisions that all the information----
    Chairman Chaffetz. So how often do you bump into this 
problem? I mean, I think before, you had mentioned that you get 
90-plus percent of the information, but it is that last little 
bit, isn't it, that you're----
    Mr. Elkins. Absolutely.
    Chairman Chaffetz. Explain that to me. Give me an example 
of--do you have something that comes to mind when I bring that 
up?
    Mr. Elkins. Well, I guess I can, you know--hypothetically, 
you know, I can--I can think of a number of different issues. 
You know, in the course of any investigation, you know, it is 
important that we don't rush to judgment, it is important that 
we have all of the information, that we make sure that we are 
targeting or we are approaching, you know, the folks who need 
to be approached.
    Chairman Chaffetz. And sorry to interrupt you there. 
Explain to me the situation with the Homeland Security and the 
lack of jurisdiction that you see. What are they doing--are 
they impeding your ability to do your job? Are they doing the 
same job that you're doing? What's happening with that?
    Mr. Elkins. Well, in the past--and we've made some progress 
in that area, so I want to preface that by saying we've come a 
long way in that area, but in the past, what the issue was is 
that we were working at opposite ends. There was activities in 
terms of investigative activities that clearly fell within the 
jurisdiction of the IG that we were not being provided that 
information at all, and the Office of Homeland Security, 
assuming that they had investigative authority, were going out 
on their own and doing their own investigations. But clearly, 
you know, you can't have--especially in law enforcement, you 
can't have two folks doing opposite--opposite missions. So 
that's the type of issues----
    Chairman Chaffetz. But they were from--from Homeland 
Security?
    Mr. Elkins. The Office of Homeland Security within EPA.
    Chairman Chaffetz. The last thing I want to bring up in my 
last minute here is--and you're fairly extensive in this 
description here, but one of the concerns is that people get 
into hot water, you're pursuing what's happening, and then they 
just file these retirement papers and then the issue just goes 
away. They get full retirement, they get full benefits, they're 
not held accountable.
    Go into a little further detail about these--this 
allegation of this one person that you were investigating at 
the EPA.
    Mr. Elkins. Well, yes. This is a--it is an interesting set 
of facts. You know, we had allegations that--of inappropriate 
conduct by this particular senior official, and over a period 
of time, you know, in doing the investigations, we found 
additional individuals who were coming forward and providing 
us, you know, more and more information. We felt that we 
needed--in order to address some of these issues, we needed to 
talk to that individual.
    And after about a 4-or 5-month period, when the individual 
was placed on administrative leave, once we approached the 
individual, he decided that he was going to retire. He didn't 
really want to talk to us. It was almost immediate. He said, 
I'm retiring today, and within a matter of hours, the paperwork 
was cut and he retired.
    Now, he was directed by the agency's management to talk to 
us, but nothing happened. He didn't talk to us. He says, I'm 
retired. The agency produced the paperwork, he was gone. So----
    Chairman Chaffetz. My time has expired, but I would hope 
that those of us on both sides of the aisle, these allegations 
is fairly serious. As the inspector general wrote, the senior 
official's inappropriate behavior toward at least 16 women from 
2004 to present, violation of security procedures, mishandling 
of classified information, lack of due diligence by senior EPA 
executives who did not act on this information and did not hold 
him accountable, and which it ultimately resulted, as he wrote, 
in six additional women being subject to the senior official's 
inappropriate behavior from January 2014 to July 2014. We have 
to be able to figure this out. These people have to be held 
accountable. To just simply retire and take full benefits, not 
be held accountable, don't--ignore the investigation here from 
the Inspectors General, you just don't get a ``get out of 
jail'' free card by just filing some retirement papers and then 
not being held accountable.
    Appreciate the time here and the patience. Now recognize 
the gentleman from Maryland, the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I--and 
one of the thing that I just want to ask all of you, you know, 
all of us are public servants and, I think, trying to do the 
jobs that we are sworn and agree to do. And one of the reasons 
why I've spent so much time, and my staff has spent so much 
time in this is because I do believe that at times there can 
be, I guess, legitimate disputes. Would you agree? I'm just 
curious, Mr. Horowitz. Legitimate disputes between the IG 
statute and the statutes that these agency heads are using to 
say, well, maybe they can't give up the information or they 
have to review it or whatever. I mean, are there legitimate 
disputes or are you saying that they're trying to hide 
something? That's the only other--I mean--one or the other.
    Mr. Horowitz. Yes. I'm not here to suggest anybody's making 
a legal opinion in bad faith at this point, but the issues that 
we had historically discussed were about sensitivity and how to 
handle documents----
    Mr. Cummings. Right.
    Mr. Horowitz [continuing]. And access; not should we get 
them, but how do we safeguard them in some of the most 
sensitive work we did.
    Mr. Cummings. And you, Mr. Elkins?
    Mr. Elkins. I would agree. You know, the IG Act is clear. 
You know, we need access in order to do our job. There could be 
legitimate disputes, and I think built into the system there's 
always the opportunity to talk through these disputes, but at 
the end of the day----
    Mr. Cummings. You got to get--you got to get some 
resolution.
    Mr. Elkins. We have to have resolution.
    Mr. Cummings. And that's what I've been trying to do. Mr. 
Elkins, the challenges you've faced in getting the information 
from the EPA's Office of Homeland Security have been certainly 
a priority of mine, and I know yours. As you know, and my staff 
has spent many hours working with your office and the Office of 
Homeland Security to help address this issue, and it looks like 
we've gotten pretty close.
    Since our hearing in September, there have been a series of 
additional meetings between your office and the Office of 
Homeland Security. Is that right?
    Mr. Elkins. That's correct.
    Mr. Cummings. And on October 15th, EPA Administrator 
McCarthy sent you and the acting associate administrator of OHS 
an email, and it said this, ``I want to confirm that OIG shall, 
consistent with its authority under the Inspector General's 
Act, have access to all information shared between FBI and OHS 
under the 2012 MOU subject to OIG personnel having the 
necessary clearance and the need to know. This is effective 
immediately.''
    So that was a positive step in the right direction, right?
    Mr. Elkins. That was positive. It was positive.
    Mr. Cummings. And our staffers on the committee, both 
Democrat and Republican, received a bipartisan briefing in from 
your office on January 28th, your counsel, Alan Larsen, stated 
that your office has ``seen a lot of progress,'' but he also 
said that you ``haven't yet crossed the finish line.'' Is that 
right?
    Mr. Elkins. That's correct.
    Mr. Cummings. Do you agree with Mr. Larsen?
    Mr. Elkins. Yes, I do.
    Mr. Cummings. So things have improved, but there's still a 
long--there's a ways to go, isn't there?
    Mr. Elkins. There is a ways to go. And, you know, you also 
have to realize trust----
    Mr. Cummings. Very important.
    Mr. Elkins. And over the years, the trust piece has been 
rocked. And so I don't know what I don't know.
    Mr. Cummings. Right. And I'm not--I'm just trying to make 
sure I get a clear picture here, a complete picture. The--so 
when you say that trust has eroded, and I agree, I'm known for 
citing the book, the ``Speed of Trust'' by Covey, which talks 
about when you cannot trust someone or you don't have a 
trusting relationship, it is all downhill and it is almost 
impossible to accomplish anything.
    So you would say a lot of this is--over the years, has been 
caused by this distrust. Is that right?
    Mr. Elkins. That's correct. You know, we've--I've had a lot 
of assurances over the years that didn't pan out, and, you 
know, 4 or 5 years, and here we are today still talking about 
this situation.
    Mr. Cummings. Can you explain the challenge presented by 
the FBI?
    Mr. Elkins. Quite frankly, no, I can't explain it. it is--
you know, you have to understand that the MOU that this whole 
argument is built on, we weren't a party to that MOU. This was 
a unilateral agreement that was put together by the agency and 
the FBI which pretty much wrote us out with us have been even a 
role in it, so it is difficult for me to understand since I 
wasn't a part of the process, but it is not based on any legal 
authority. From what I understand, the FBI has even said that 
there's no reason that they can't share information with us, 
and they're willing to do so.
    Mr. Cummings. So things stand right now with the FBI 
willing to do so, but----
    Mr. Elkins. But we still have an MOU in place that says 
that they're not. That MOU is still in place. The MOU hasn't 
gone anywhere. As I recall, there is a meeting scheduled in 
March between agency management, myself and the FBI, and we are 
supposed to sit down. Now, subsequent--or maybe, I understand, 
from your office and what I've heard here today that maybe we 
will all get together and have a conversation as well, but 
until that--that happens, the MOU is still in effect.
    Mr. Cummings. Well, the chairman--you heard the chairman in 
his opening Statement, and he agreed to sit down with us and 
see what we could work out. And I can understand you-all's 
position and I understand all of our position is that you 
shouldn't even have to do that, you shouldn't even have to, 
but--but as I always say, sometimes you have to deal with what 
you've got, the cards at that moment. Hopefully we'll get 
something more permanent resolved here, but the question 
becomes what would you like to see done in that meeting, 
accomplished in that meeting?
    Mr. Elkins. Well, first of all, I would like for all 
parties to agree that the IG should have unfettered access to 
information and to people, period. And to the extent we can get 
there, we can move forward. We can't get there, and the MOU 
stands in the way. So if we can get over that hurdle, that's 
what I'd like to see.
    Mr. Cummings. And how soon do you want that meeting to 
happen, the meeting that----
    Mr. Elkins. It should have happened years ago, but I would 
like to see it happen today, tomorrow, as soon as possible.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Chaffetz. Thank you. I now recognize the gentleman 
from Ohio, Mr. Jordan, for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Horowitz, I share your frustration with the Justice 
Department as well. I'm going to shift to a slightly different 
topic, but still in this general area of frustration with lack 
of cooperation and lack of doing what I think they're required 
to do under the law.
    Are you aware of the fact that Lois Lerner's attorney, Bill 
Taylor, reported that Ms. Lerner sat down for a lengthy, and 
that's his term, her attorney's term, lengthy interview with 
the Justice Department regarding the situation of targeting 
conservative groups and that criminal investigation?
    Mr. Horowitz. I'm not personally aware of it, but I think 
I've read somewhere along the way in news reports.
    Mr. Jordan. And my question is do you find that strange 
that Ms. Lerner is willing to sit down with the Justice 
Department but not willing to answer Congress's questions?
    Mr. Horowitz. It would be difficult for me, Congressman, to 
answer that without knowing----
    Mr. Jordan. But just sort of a--I mean, you're an 
accomplished lawyer. Just the general point that, you know, it 
is the Justice Department that can put her in jail. We can't 
put her in jail. we are just trying to get information so that 
the American people can know what happened when the IRS 
systematically targeted people for exercising their First 
Amendment rights. Don't you think that's a little strange?
    Mr. Horowitz. It would be hard for me to opine on what the 
strategy was there on----
    Mr. Jordan. Mr. Horowitz, last year the U.S. House of 
Representatives voted, with 26 Democrats I might add, voted to 
call for a special prosecutor at the Justice Department to look 
into this investigation, and on May 7th, 2014, May 7th of last 
year, 9 months ago, the U.S. House held Lois Lerner in contempt 
of Congress.
    Do you have any information about what U.S. Attorney Ron 
Machen is doing with that Contempt of Congress resolution he 
has as district attorney for the District of Columbia?
    Mr. Horowitz. I don't.
    Mr. Jordan. Do you know how the statute reads, Mr. 
Horowitz? The statute says, Section 194 says that such 
certification having been made, the contempt resolution having 
been made, it shall be the duty to bring the matter before the 
grand jury.
    Are you familiar with Section 194?
    Mr. Horowitz. I'm generally familiar with it.
    Mr. Jordan. And wouldn't that seem to point out rather 
clearly that Mr. Machen should take this to the grand jury?
    Mr. Horowitz. You know, I certainly think there are 
questions there and to ask about the----
    Mr. Jordan. Now, there's--my understanding--and, again, 
you've been at the Justice Department a long time, I've looked 
at your bio before, very accomplished attorney. There is an 
exception for the U.S. attorney to not take this to a grand 
jury. Do you know what that exception is, Mr. Horowitz?
    Mr. Horowitz. I don't off the top my head.
    Mr. Jordan. I will tell you. It is executive privilege. So 
if there's executive privilege, it doesn't have to take it. So, 
again, thinking about recent things Congress has done, that 
executive privilege exception would apply to, say, the contempt 
resolution of Attorney General Holder, correct?
    Mr. Horowitz. I'm not sure I've sort of looked at this, 
frankly----
    Mr. Jordan. Well, let me ask you this: Do you think there's 
any type of executive privilege that exists between--for Lois 
Lerner?
    Mr. Horowitz. Congressman, I'd have to pass on opining on 
that. Frankly----
    Mr. Jordan. But as a lawyer, the only way executive 
privilege would exist for Ms. Lerner is if she had some kind of 
conversation with the President or his key advisors. Isn't that 
correct?
    Mr. Horowitz. My general understanding of executive 
privilege law----
    Mr. Jordan. Okay.
    Mr. Horowitz [continuing]. Would be that.
    Mr. Jordan. Okay. Have you looked into why Mr. Machen has 
not taken this to the grand jury?
    Mr. Horowitz. We have not. And we would not be allowed to 
look into that under the jurisdictional authority of our 
statute, or we would have questions certainly to raise about 
that, about whether we could even look at that.
    Mr. Jordan. If this committee asked you to look into that, 
could you look into it?
    Mr. Horowitz. I don't believe so, although we would 
certainly want to look more closely at it. The issue being that 
under the IG Act, our office is limited to--in what we can do 
to oversee allegations of misconduct by department lawyers.
    Mr. Jordan. Okay. Finally, the last thing I would say is 
this, Mr. Chairman. This is a pattern. The executive branch 
agencies, first they drag their feet, they don't comply with 
things Congress wants. I mean, we have a subpoena--as just a 
recent example, we have a subpoena that came from this 
committee in August 2013 dealing with a situation that took 
place in Benghazi, and we've yet to have the State Department 
comply with that subpoena a year and a half ago.
    So there's all kinds of examples where executive branch 
agencies won't work with Congress, won't comply with the law, 
just like these Inspector Generals are pointing out today, as 
they pointed out in Mr. Horowitz's letter from today, and now, 
and now we find out it is across the board. So this is--this 
is, I mean, a very appropriate hearing and I appreciate the 
chairman doing this. And with that, I would yield back my time.
    Chairman Chaffetz. I thank the gentleman. Now recognize the 
gentlewoman from the District of Columbia, Ms. Norton, for 5 
minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. And I want 
to thank Mr. Horowitz and all of those associated with the 
independent councils in our government.
    I am particularly interested in law enforcement material, 
perhaps as a lawyer and perhaps because I regard some of this 
material as extremely sensitive and because I think this 
committee should not simply be exposing problems, but getting 
to remedies for these problems. And as I understand it, the 
Department of Justice has been reluctant to give access to 
certain kinds of information which address, the average person 
would regard them as highly secretive, like grand jury matters, 
wiretapping matters, even credit reporting matters.
    Now, your complaint, as I understand it, is that in order 
for you to get access, this has to go through bureaucratic 
steps all the way to the deputy attorney general. Is that not 
correct?
    Mr. Horowitz. That's the process currently set up, that's 
correct.
    Ms. Norton. And apparently in some of your investigation, 
you regard this delay as compromising your office's 
independence?
    Mr. Horowitz. That's correct.
    Ms. Norton. And this is what I want to--want to seek 
clarification. Your--the statute couldn't be more generically 
clear, without exception. It says, I'm talking about 6--Section 
6(a)(1). It states that the IG shall have access to all 
records, reports, audits, reviews, documents, and papers. And I 
don't know when this statute was passed, but that's what it 
said then. I haven't seen the legislative history. All I know 
is normally access to something like grand jury, and wiretap 
materials is of the utmost secrecy.
    Now, the Justice Department says that if they get an Office 
of Legal Counsel opinion, then they would apparently be ready 
to release this material to the inspector general. Is that not 
correct?
    Mr. Horowitz. That's what they say they're waiting for, is 
the Office of Legal Counsel opinion.
    Ms. Norton. Well, I have to tell you, Mr. Horowitz, I can 
understand an Office of Legal Counsel not wanting that weight 
on his shoulders, whoever he is, when it comes to materials 
that have always been regarded as secret, and no matter what 
the statute says. And I--and, of course, you're still waiting 
and they're still investigating.
    I'm wondering if we shouldn't simply call the question and 
ask for a change in law so that that would not be on the 
shoulders of a single law enforcement officer. When we are 
talking about something that in our society has always been 
regarded as secret for very good reasons, perhaps even before 
there was an independent--an IG statute, should we continue to 
wait and should we be content with an Office of Legal Counsel, 
or would it not be preferable for this Congress to clarify this 
issue once and for all?
    Mr. Horowitz. That's an excellent question, Congresswoman. 
And just to clarify, my office before 2010 got all of this 
information without any legal issue----
    Ms. Norton. Yes. And we don't----
    Mr. Horowitz [continuing]. From the FBI.
    Ms. Norton. So, you know----
    Mr. Horowitz. There was no issue.
    Ms. Norton. And so we don't know--when we are in the--we 
are in an era of growing secrecy, which many of us object to 
precisely because we don't know what the secret is, we don't 
know what has transpired between 2010 and 2014. We have the 
same administration. Has there been a change in administration?
    Mr. Horowitz. There has not.
    Ms. Norton. So, you know, we are talking about the same 
folks, and yet they don't want to give this material over. What 
that says to me is that, you know, the next administration, you 
could go the same Sisyphus uphill climb.
    Isn't it time for some of these matters, at least these 
matters involving historically secret matters, because secret 
matters for very good reason, no matter who we are talking 
about, to simply get a clarification of a statute that is very 
general and does not seem to admit of any exceptions, would 
that not help at least with such--such sensitive materials to 
clarify this matter? And is there any reason for this committee 
not to come forward with a change in law once and for all?
    Mr. Horowitz. And I think the issue for the inspector 
general community has been that the law is clear, the practice 
had always been to give us that information.
    Ms. Norton. We understand that. I'm talking about the 
delays----
    Mr. Horowitz. No. And I'm--right.
    Ms. Norton. Look, look, Mr. Horowitz, unlike some people on 
this committee, I'm remedy-oriented.
    Mr. Horowitz. I know that.
    Ms. Norton. You know, we can have you back here, and you've 
been here before. Now, I'm not talking about the other matters.
    Mr. Horowitz. No. I understand.
    Ms. Norton. I'm talking about these matters which have 
always been considered highly secret. Is there any reason why 
we should delay clarifying this in law?
    Mr. Horowitz. The concern in the inspector general 
community is, yes, if Congress immediately passed something and 
it could go through, that would be great, it would resolve all 
our issues. The problem is what the Department--the FBI and the 
Department and OLC has been looking at is what was Congress's 
intent back in 1978 when it passed the statute? And the concern 
being that if Congress took--took this up to imply or suggest 
for any reason that perhaps the law is unclear, when everybody 
in the inspector general community thinks it is crystal clear 
and the practice has been that it is crystal clear we get 
access to it, that it could, if it didn't pass immediately or 
get addressed immediately, it would be cited as a reason not to 
give us access going forward. And that's a--that's a 
significant concern that we have.
    Ms. Norton. I thank the gentleman.
    Mr. Chairman, I want to thank you, but I want to say 1978--
between 1978 and 2014, there's such a world of difference in 
secret matters, I think this needs to be looked into more 
closely. Thank you very much.
    Chairman Chaffetz. Now recognize the gentleman from 
Michigan, Mr. Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel, each of you, Mr. Horowitz, Mr. Elkins Ms. Buller. Thanks 
for the work you do. Sounds like it is pretty much an uphill 
battle, and with deference to my colleague as well. I really 
think we ought to set the primacy on our discussions here on 
the law. What is the law?
    I would--I would suggest, Mr. Chairman, that--that rather 
than pushing ourselves to change the law, when we hear from a 
panel as distinguished as this and the many in the room that 
are simply attempting to use the law that is clear. I mean, 
I'll read again where section 6(a) of the IG Act States clearly 
have--that IG shall have access to all records, reports, 
audits, reviews, documents, papers, recommendations, or other 
material which relate to programs and operations with respect 
to which the inspector general has responsibilities under. 
That's pretty clear, even for a nonattorney like myself.
    As a minister, I've got to settle disputes on the issue of 
Scriptures, but this is the law, and we are doing a good work 
here, pushing back against the idea that things change, and 
yes, they do. I've had birthdays, 63 of them, and I changed, 
but the law is the law, and I think that's our concern for 
today.
    Mr. Horowitz, many times you've raised the issue of the FBI 
restricting your access to certain documents and information. 
You even went so far as to include a formal complaint in your 
most recent semi-annual report, which is extremely rare. How do 
the FBI and DOJ justify withholding grand jury and Title III 
material from you?
    Mr. Horowitz. The position they have taken since 2010 is 
that they have now interpreted those other statutes as placing 
limits on what section 6 says in the IG Act.
    Mr. Walberg. They've interpreted it?
    Mr. Horowitz. That's correct.
    Mr. Walberg. You have not had this problem before?
    Mr. Horowitz. Prior to 2010 we did not have that issue 
raised by the FBI.
    Mr. Walberg. What is the process for obtaining these 
materials if you need them for an investigation?
    Mr. Horowitz. We send the document request to the FBI. 
They've put in place, frankly, what's a costly and timely 
system of now reviewing records before they produce it to us, 
something they hadn't done previously, for the purpose of 
determining whether they needed to withhold those materials 
from us so they could then look at them, confer with the 
Attorney General or the Deputy Attorney General, get an opinion 
memorandum from the Attorney General or Deputy Attorney General 
authorizing them then to release them to us.
    Mr. Walberg. So it is correct or incorrect that you have to 
convince the Attorney General to release the materials to you 
in any case?
    Mr. Horowitz. They certainly have to explain to the 
Attorney General. The Attorney General has to conclude it in 
each case. We have not yet had us have to go into the room for 
those meetings.
    Mr. Walberg. How that has that process affected the pace of 
your investigations?
    Mr. Horowitz. It has had a significant impact on us. 
Frankly, the biggest impact is on the staff, when you talk 
about the thousands of people who work in the IGs offices. If 
you had some of my staff up here explaining to you how it 
impacts their day-to-day ability to do their jobs, we get 
bogged down, we stop work, you lose valuable time and money and 
resources on our side, You have the FBI ramping up on their 
side. It is a process that just doesn't need to happen and 
didn't happen before 2010?
    Mr. Walberg. It affects your independence?
    Mr. Horowitz. It absolutely affects our independence.
    Mr. Walberg. Which is the rationale that the Congress had 
in mind to make sure we had oversight.
    Mr. Horowitz. That's correct. If we have to go through the 
agency leadership to decide whether we get records, that's a 
serious problem undermining our independence.
    Mr. Walberg. In your testimony you pointed out that section 
218 of the appropriations bill that we are living under now 
prohibited DOJ from using any funds to deny your office access 
to agency materials.
    Do you believe this provision has a positive impact on your 
access to records?
    Mr. Horowitz. I think it generally has had a positive 
impact.
    Mr. Walberg. Why do you believe the President in the budget 
that he has just released yesterday tries to remove this 
provision?
    Mr. Horowitz. I can't explain the motivation. I can tell 
you I think we've had a--it hass had a productive effect on our 
discussions with the Department generally.
    Mr. Walberg. Well, the President attempts to explain the 
change when he says in the budget address that the Department 
is unaware of any specific materials that OIG believed 
necessary to its reviews but to which the OIG has not been 
granted access.
    Have you made the Department aware of access issues?
    Mr. Horowitz. Made aware of the access issues as I've 
talked about in my Statement and in prior hearings? We haven't 
ultimately had anything withheld from us, but that is dependent 
on who sits in the corner offices at the Department. 
Fortunately, the Attorney General and the Deputy Attorney 
General have committed to getting us the material, but it turns 
on whether--on a decision by them as opposed to an independent 
decision by inspector general.
    Mr. Walberg. Okay. Well, I would just add, I am very 
interested in why the President would say this when we have a 
hearing like this, and we've had one before, I'm certain that 
the Inspectors General have concerns why the President would 
want to remove that section when it seems so important that 
Congress would address it and say we need to use the Inspectors 
General appropriately and fully and give them access.
    So I thank you for this questioning, and we'll see the 
answer.
    Chairman Chaffetz. I thank the gentleman. We now recognize 
the gentleman from Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman, and I thank the ranking 
member for holding this hearing, and I want to thank the 
witnesses for offering your testimony and helping the committee 
with its work.
    This really is a, you know, in a way, a constitutional 
crisis if this is going to be the position of the 
administration or any administration. We had this situation 
back during the Bush Administration when we were trying to do 
oversight on Iraq reconstruction, and now I see in the last 
couple of weeks that--that DOD has taken a position against the 
special inspector general for Afghan reconstruction where 
information that used to come to this committee, and now I'm 
the ranking Democrat on the national security subcommittee, 
that information that we got for the last 6 years is now not 
available to us.
    I guess last night The New York Times reports that there 
has been a reversal in part on the part of the NATO resolute 
support mission to release some of the information that we used 
to get all the time. So we are really hamstrung here. As long 
as--I mean, oversight is really a constitutional responsibility 
of ours. It is inherent in the balancing of the checks and 
balances between the executive, the Congress, and the 
judiciary, and if we can't get that information, if we can't 
have you as our emissaries in a real way to get that 
information to us, we cannot do that part of our constitutional 
responsibility.
    And, you know, it mystifies me how this is happening all 
across the government in all these agencies at the same time 
and just recently. Like I said, for 6 years we were getting 
this information, these reports, these action reports. You 
know, I'm not a conspiracy-minded person, but, you know, I do 
have to say that we know, from your reports--actually Stuart 
Bowen, who is the inspector general for Iraq reconstruction, he 
actually helped us determine that in Iraq we had trained 930--
938,000 Iraqis, military, police, and border patrol.
    We spent $25 billion on training Iraqis. So now when the 
military comes up with this new plan to train some more Iraqis, 
we can push that back on them, and the reason we can is because 
Stuart Bowen and members of this committee did dozens and 
dozens and dozens--and I give credit to John Tierney, who is no 
longer a Member here, but he did some great work on that. The 
reason we know that that system does not work and that 
Americans--American taxpayers' money was wasted was because of 
the work that the inspector generals did, that you-all did. 
That's how we got that information.
    And now they are saying we can't have that information 
because it is embarrassing, it is embarrassing, that that 
information that you gave us allows us to hold the executive 
accountable. That's the way this is supposed to work, and I 
just--I'm troubled by the fact that all of a sudden the 
transparency is shutting down, that you are not allowed to do 
your jobs. And I just want the say that, you know, at the 
outset, both the ranking member and the chairman both said it 
is pretty sad that the Inspectors Generals have to come here to 
Members of Congress to help them to do their job, but that is--
it might be sad, but this is where we are at. Like the ranking 
member said, sometimes you get--you are what you are, and so we 
have to have a partnership between the inspector general 
community and Congress to make sure that we all do our jobs, 
that we help you help the American people. That's what this is 
all about.
    So maybe it is--maybe it is a legal quandary, maybe we have 
to get reaffirmation from the courts that this is indeed our 
constitutional obligation, but we have to work together. And 
just by closing, I've used up all--almost all my time. I just 
want to say that in prior budgets, we had defunded the ability 
of the inspector general community to do their job. And I know 
that Mr. Elkins eloquently stated that resources are a big part 
of this as well.
    In order to for them to do their job and help us with the 
issues that we are all talking about, we need to fund this part 
of government. You can be against big government, you can be 
against intrusive government, but you can't be against 
functioning government, and functioning government are those 
people out there that do this work every single day. And I just 
want the say that we ought to remember that when the budget 
time comes around. Thank you. I yield back.
    Chairman Chaffetz. Thank you. Well said. I appreciate that. 
Mr. Gosar from Arizona is now recognized for 5 minutes.
    Mr. Gosar. Thank you, Mr. Chairman. Thank you for all that 
you guys do at the inspector general's office.
    Mr. Horowitz, thank you for everything. Specifically my 
next questions come on the Department of Justice. Quick 
question. Is the Department of Justice run from the bottom up 
or from the top down?
    Mr. Horowitz. I think generally from the top down.
    Mr. Gosar. Hmm. And you're a dependent or an independent 
agency?
    Mr. Horowitz. We are an independent agency housed within 
the Justice Department.
    Mr. Gosar. You're no lesser of an attorney than anybody in 
the DOJ?
    Mr. Horowitz. I will let others make that judgment, 
Congressman.
    Mr. Gosar. I think I'd put your credentials against anybody 
from what I see.
    Whistleblower protection. Are you concerned about that?
    Mr. Horowitz. We are deeply concerned about it, and I'm 
deeply concerned it is arisen in this context that I've sent 
the letter today.
    Mr. Gosar. Have you seen the protection of whistleblowers 
get stronger today or are they less so than lets say 2009? And 
I am picking that particularly.
    Mr. Horowitz. Well, we have certainly made efforts to make 
them stronger, but when you see this action where we are trying 
to move forward on a whistleblower retaliation allegation, and 
the--involving an FBI employee and the FBI wants to first 
review the documents to see if we are legally entitled to get 
access to them, that causes me great concern.
    Mr. Gosar. Absolutely. And I go back to something your 
partner right next to you said. Trust is a series of promises 
kept, and to the gentlewoman across that I've seen, what 
happened since 2010, well, there is Fast and Furious, the AP 
reparations, Jane Rose and IRS, Benghazi, it goes on and on and 
on.
    Are you familiar, Mr. Horowitz, with slow walking 
documents?
    Mr. Horowitz. We have certainly had difficulty getting 
prompt access to documents.
    Mr. Gosar. Prompt access to documents also supports proper 
protection for whistleblowers, does it not?
    Mr. Horowitz. That's correct.
    Mr. Gosar. So I'm going to go back to your testimony in 
September 2014 to this committee. You stated, ``the FBI and 
some other department components have refused our request for 
various types of documents. As a result, a number of our 
reviews have been significantly impeded.'' You added that DOJ 
officials caused significant delays in gaining access to 
important documents in the IGs review of Operation Fast and 
Furious.
    Do you believe that the delays caused by the refusal of the 
DOJ officials to release documents were intentionally done by 
some officials within the agency in order to slow down the IGs 
investigations?
    Mr. Horowitz. I actually was not, the IG, back when that 
all played out before----
    Mr. Gosar. But you've seen significant delays?
    Mr. Horowitz. But I have certainly seen significant delays.
    Mr. Gosar. I mean, just like us in those delays, you've 
seen those delays because it took a Freedom of Information Act 
to get that information when it was not available to you or us.
    Mr. Horowitz. I've seen them, and my staff, frankly, has 
lived them.
    Mr. Gosar. Okay. So could these delays and impediments to 
the investigation in the Fast and Furious which continue today, 
amount to obstruction in your opinion?
    Mr. Horowitz. They have certainly----
    Mr. Gosar. I mean, this is not normal course.
    Mr. Horowitz [continuing]. Impacted. Let me just say----
    Mr. Gosar. This is not normal course of procedure, is it 
not?
    Mr. Horowitz. It shouldn't be. Unfortunately, in many 
reviews, we are seeing it over and over again, and it has 
impacted those reviews.
    Mr. Gosar. So let me go back to this DOJ being top down. So 
if the Attorney General wants to set an atmosphere of change 
and compliance, he could, could he not?
    Mr. Horowitz. I think across all of the components, that 
culture that was talked about earlier is critical to set.
    Mr. Gosar. And the same thing with this President. He 
promised an era of transparency, and I've hardly seen, you 
know, the most transparent administration period. So even the 
President could actually expediate this, could he not?
    Mr. Horowitz. I think there are a lot of people in this 
process, I agree, that could have an impact by sending a clear 
message that what happened prior to 2010, which worked just 
fine, no law changing in 2010 is where we should be.
    Mr. Gosar. So you are very familiar with the Vaughn Index, 
right?
    Mr. Horowitz. Correct.
    Mr. Gosar. So was there anything in the Vaughn Index that 
really merited executive privilege?
    Mr. Horowitz. Congressman, I wouldn't opine on that. 
Frankly, I haven't--I'm familiar with the index. I frankly----
    Mr. Gosar. Once again, it goes to that mindset from the top 
down, I mean, so when you start seeing private emails being put 
on executive privilege, I mean, it behooves me that we are not 
following the law. And the way our system is based is that 
everybody in good faith upholds their oath to defend and 
protect this Constitution, to uphold the rule of law, would you 
agree?
    Mr. Horowitz. I agree with that.
    Mr. Gosar. So it starts from the top down, not the bottom 
up.
    Mr. Horowitz. I think, frankly, it is both the top and the 
bottom and everything in between that we've had both----
    Mr. Gosar. But as an executive, you set the tone. You told 
me that----
    Mr. Horowitz. That's correct.
    Mr. Gosar [continuing]. From the top down. So you set the 
tone from the top. And where responsibilities of aggression 
are, responsibilities of accountability need to be placed.
    Mr. Horowitz. You know, we've taken the position from, 
certainly since I've been there in 2012 with the leadership of 
the Department that given the past practice, given how things 
worked before 2010, there is more than--more than enough good 
faith basis to send a message that the IG, as the Section 6 
states, is entitled to access all of these records. And we've 
always handled them appropriately. We have never violated any 
of the provisions in the grand jury secrecy, Title III, et 
cetera, that are rightly there to protect privacy interests. 
That has never been an issue.
    We have done the Hanssen review, we have done national 
security reviews, we have done FISA Amendment Act reviews, we 
have done PATRIOT Act reviews. I can go on and on about the 
sensitive work my office, primarily, as I said, the staff has 
done for the 25 years of our existence. We have acted 
responsibly and appropriately. Nothing changed in 2010, and 
what we need to do is get back to where we were before 2010 
when there was a culture of openness and a dialog that occurred 
between our office and the components on how we appropriately 
handle those materials, review those materials to ensure that 
among the most sensitive information, which is what we are 
seeing when we are looking at the FBI national security 
matters, we do maintain that carefully, and we should have that 
dialog. But it shouldn't be whether we see it but how we handle 
it and go forward.
    Mr. Gosar. Mr. Chairman, I just would like to say that----
    Chairman Chaffetz. Thank you.
    Mr. Gosar [continuing]. This is a very important question 
for the future Attorney General to be asked pointedly about her 
views in openness.
    Chairman Chaffetz. Thank you. Recognize the gentleman from 
Virginia, Mr. Connolly for 5 minutes.
    Mr. Connolly. Thank you. Mr. Horowitz, is it not true that 
the President is a Kenyan socialist colonialist who lied about 
his birth certificate?
    Mr. Horowitz. I wouldn't even venture to try and answer 
that.
    Mr. Connolly. Oh, so in other words, there is some leading 
questions an IG should not and cannot answer; is that correct?
    Mr. Horowitz. I try not to answer questions that----
    Mr. Connolly. Right.
    Mr. Horowitz [continuing]. Frankly haven't----
    Mr. Connolly. I appreciate the point. I really appreciate 
the work IGs do, but in order for us and the public to have 
confidence, we also need to have confidence in you. We need to 
make sure you are purer than driven snow, and that where there 
are any ethical or professional misconduct questions or even 
questions about methodology that seem not to be right, that 
there has to be a remedy that's accessible and transparent to 
address that and correct it; otherwise, your whole 
investigation is tainted if you are tainted. Would you agree 
with that, Mr. Horowitz?
    Mr. Horowitz. I agree completely.
    Mr. Connolly. And Mr. Horowitz, you are now the chairman of 
something called CIGIE, the Counsel of Inspectors General on 
Integrity and Efficiency. Would you briefly tell us what CIGIE 
does?
    Mr. Horowitz. CIGIE is the umbrella organization of all 72 
Federal IGs the Congress set up when it created the IG Act. We 
have a number of responsibilities that include coordinating 
reviews among IGs, working to get replacements for vacant--IG 
vacancies, and we have an integrity committee that oversees 
allegations against Inspectors General and their most senior 
officials.
    Mr. Connolly. You have an integrity committee as a subset 
of CIGIE?
    Mr. Horowitz. That's correct.
    Mr. Connolly. And who chairs--who chairs the integrity 
committee?
    Mr. Horowitz. The Federal Bureau of Investigation.
    Mr. Connolly. The FBI. I hope the chairman heard that. The 
FBI chairs the integrity committee.
    So when a charge is made about one of your colleagues, 
founded or unfounded, and assuming that it doesn't go to one of 
the specialized agencies, EEOC goes one place and something 
might criminally be referred to another place, but that which 
is left goes to the integrity committee about professional 
conduct and so forth; is that correct?
    Mr. Horowitz. Correct.
    Mr. Connolly. And it is chaired by the FBI. So when that 
committee----
    Mr. Horowitz. Uh-huh.
    Mr. Connolly [continuing]. In the due course of time 
investigates somebody and comes up with a finding, they then 
present the report to you as the chairman of CIGIE for your 
review; is that correct?
    Mr. Horowitz. They actually by statute don't.
    Mr. Connolly. They don't?
    Mr. Horowitz. That's correct. They send their report to the 
Deputy Director for management at OMB, and if it is a 
Presidential appointee, to the President. If it is a non-
Presidential DSE IG, it goes to the agency. It does not go to 
the CIGIE chair.
    Mr. Connolly. Hmm. So if the broad public wants--let's say 
somebody wants to clear his name. Let's say an unfounded charge 
comes before CIGIE and the integrity committee and it is 
unfounded but it has to be investigated, that report then gets 
buried at OMB and maybe never sees the light of day?
    Mr. Horowitz. Under the statute, the records would be 
maintained by the FBI, and obviously, any recipient of a report 
would have a record of it.
    Mr. Connolly. How often does the integrity committee meet?
    Mr. Horowitz. Frankly, I'm not a member of it. I'm not a 
part of it, but one of the things that I certainly want to do 
is have it meet on a monthly basis so that we can move matters 
more quickly.
    Mr. Connolly. So, for example, if there were a complaint or 
a charge filed against an IG, is there an immediate process 
that gets kicked in, or do we just wait for your biannual 
meeting?
    Mr. Horowitz. Under the procedures currently in place, 
there is a process that kicks in in terms of it going to a 
working group to review it, consider it, and then processes 
that go forward from there.
    Mr. Connolly. And two of us on this committee filed a 
complaint against one of your colleagues, and all we got after 
a fairly detailed six-page, single-spaced complaint on July 31 
of last year, we simply got a one-paragraph thing saying we 
reviewed it and we think his response--his response 
sufficiently addressed the allegations, period. Thank you very 
much. Have a good day.
    Is that how you would conduct your review of an agency such 
as the one you're assigned to?
    Mr. Horowitz. I think that is a issue that's important for 
us to take up in CIGIE, to how--how to better deal with the 
transparency issues that you've raised and I know we are 
concerned, other members were talking about.
    Mr. Connolly. Well, we are going to give you a chance, 
because I assure you Mr. Cartwright and I will refile our 
complaint.
    Let me ask a question. I have here the Council of the 
Inspectors General on Integrity and Efficiency. You're familiar 
with that?
    Mr. Horowitz. Yes, I am.
    Mr. Connolly. In that document, it says ``IG should avoid 
any appearance of partisanship in such engagements. Bipartisan 
meetings and outreach is the most appropriate format for such 
OIG meetings. If a bipartisan meeting is not feasible, it is 
the best practice to ensure the majority and minority 
understand the willingness of the OIG to meet separately.''
    Would you say that a consistent pattern of meeting with 
just one side of the aisle by an IG would be in violation of at 
least the spirit of that guidance?
    Mr. Horowitz. Congressman, it certainly isn't a practice 
that my office would follow. We follow that practices of 
reaching out to both sides.
    Mr. Connolly. Are you aware of the fact that the ranking 
member, Mr. Cummings, and I wrote a year ago, almost to the 
day, February 4th, 2014, complaining about that very fact and 
that very behavior by J. Russell George, the inspector general 
at the tax administration of the Treasury. Are you aware of 
that complaint?
    Mr. Horowitz. I'm not familiar with it.
    Mr. Connolly. I'll make sure you have a copy of it.
    Chairman Chaffetz. I thank the gentleman.
    Mr. Connolly. I thank the chair.
    Chairman Chaffetz. Time has expired. We now recognize the 
gentlewoman from Wyoming, Mrs. Lummis, for 5 minutes.
    Mrs. Lummis. Thank you, Mr. Chairman, and I want to thank 
the gentleman and women of the Office of the inspector general 
for your work on behalf of the American people, those here 
present and your colleagues as well.
    I'd like to focus my questioning on Mr. Elkins and----
    Mr. Elkins. Yes.
    Mrs. Lummis [continuing]. EPA. Mr. Elkins, is it the case 
that on January 16th you sent a memo to the President in 
followup to your investigation on the use of private email 
addresses by the Chemical Safety Board chairman Moure-Eraso, 
and to the general counsel Richard Loeb of the CSB, and the 
managing director Daniel Horowitz, and that these--the office 
found, your office found information sufficient to support a 
conclusion that these three officials used private non-
government emails to communicate on Chemical Safety Board 
matters?
    Mr. Elkins. That's correct.
    Mrs. Lummis. And is it a violation of the Federal Records 
Act to do that, to use----
    Mr. Elkins. That was our conclusion, yes.
    Mrs. Lummis. Okay. Mr. Chairman, I have a copy of Arthur 
Elkins' inspector general's report to the President in my hand. 
I would like to enter it into the record.
    Chairman Chaffetz. We would like to ask unanimous consent 
to enter into this into the report pending a review by this 
inspector general to make sure that there is no sensitive 
information that should not be released, but pending that 
review and getting back to our committee, I would ask unanimous 
consent that it be entered into the record.
    Mr. Cummings. Mr. Chairman, I have no objection except what 
you just said. I just want to make sure there are privacy 
concerns, should they might adhere to.
    Chairman Chaffetz. So we will review these documents, allow 
the IG to review these documents before they go into the 
printed record. Without objection, that's the way we'll 
proceed, and I thank the gentlewoman.
    Mrs. Lummis. Thank you, Mr. Chairman.
    Has the White House responded to your report, Mr. Elkins?
    Mr. Elkins. Yes, the White House has. Actually, yesterday 
afternoon, I received a letter from the counsel to the 
President, a copy of the letter that was sent to the chair 
stating the intent to be compliant with the law in the 
expectation that the White House--the expectation of 
compliance. So I did receive a letter and there was a followup, 
yes. That occurred yesterday.
    Mrs. Lummis. And what followup will you be making to your 
report based on the White House's response?
    Mr. Elkins. Well, at this stage of the process, once our 
report is done and we forward it on to the deciding official, 
in this case it will be the President, it is really in the 
President's ballpark to then make a decision. So there is not 
much we can do beyond that. We've made a recommendation, and 
you know, that recommendation needs to be acted on, so our role 
is pretty much over with.
    Mrs. Lummis. Do you know, are officials still using private 
emails to conduct official business at the Chemical Safety 
Board?
    Mr. Elkins. I can't say conclusively that the issue has 
been fully resolved because, you know, we haven't received--we 
don't know that we received all the information that we 
requested, so that's still an open matter.
    Mrs. Lummis. Okay. Going back to some testimony that you 
provided to this committee in June 2014. You testified that as 
of that date in June that the Chemical Safety Board refused, 
and to that day, continued to refuse to provide documents that 
you requested, and that you determined were necessary to 
investigate these activities. Did they ever provide those 
documents?
    Mr. Elkins. Well, they were supposed to send us an 
affirmation that they have complied with our request. To this 
date, we are still waiting for that affirmation, so one can 
infer that maybe there is still information out there that we 
don't have.
    Mrs. Lummis. You don't know what you don't know.
    Mr. Elkins. Correct.
    Mrs. Lummis. I want to switch over to the EPA's semi-annual 
report to Congress from the first half of 2014. You indicated 
in that report that multiple offices at EPA were obstructing 
the OIG, including Homeland Security, chief financial officer, 
Chemical Safety and Pollution Prevention, and the Office of 
General Counsel all within EPA. Which of those offices have 
been most problematic to you?
    Mr. Elkins. The office of Homeland Security.
    Mrs. Lummis. Is--so no other offices as egregious as that 
one, but you've had problems with all of them.
    Mr. Elkins. That's a fair assessment, yes.
    Mrs. Lummis. Have any of those offices improved?
    Mr. Elkins. Yes, I think they have all improved. We have 
made progress, and I have to thank this committee for their 
efforts because, but for your efforts, I may have a different 
report; but for your efforts, things have improved greatly, 
yes.
    Mrs. Lummis. You testified about being blocked from access 
to the EPA's office of Homeland Security. I think that was back 
in, well, roughly half a year ago. How were you prevented from 
access to information by them?
    Mr. Elkins. Well, the prevention really has come about from 
just stonewalling, just not providing the information that we 
have requested. It is stonewalling. That's the best way I can 
describe it.
    Mrs. Lummis. Well, and your testimony submitted at that 
time, you said that OHS' investigation of John Beale, this was 
the guy who defrauded the EPA under the guise of being a CIA 
operative.
    Chairman Chaffetz. The gentlewoman may finish her question 
that may be asked, but the gentlewoman's time has expired so--
--
    Mrs. Lummis. You know, Mr. Chairman, I'll allow one of my 
colleagues to complete this line of questioning. Thank you.
    Chairman Chaffetz. I thank the gentlewoman.
    Now recognize the gentlewoman from Michigan, Ms. Lawrence 
for 5 minutes.
    Mrs. Lawrence. Thank you, Chairman Chaffetz and our ranking 
member Mr. Cummings. I believe we have an obligation to 
preserve the independence and the effectiveness of the Office 
of the inspector general at the Department of Justice as well 
as other agencies. I want to thank all of you here today for 
your service and for the hard work that you do every day.
    Today I would like to direct my questions--my concerns to 
the Peace Corps, and if I could ask Ms. Kathy Buller. Your 
testimony States that a legal opinion of the previous Peace 
Corps' general counsel is ``standing in our way of fulfilling 
the duties of the inspector general's office.''
    Can you tell us a little bit about the legal issue here and 
why there is a disagreement?
    Ms. Buller. Back in 2011, Congress passed the Kate Puzey 
Volunteer Protection Act, and in that Act they created a system 
for Peace Corps to implement its program for assisting victims 
of sexual assault, and there were a number of requirements 
contained in that legislation. One of them was to create a 
system of restricted reporting that would allow a victim of a 
sexual assault to come and report that they had been assaulted 
and receive whatever services they needed as a result of that 
assault without their information being disseminated widely.
    That legislation also created a mandatory duty for my 
office to do evaluations periodically. Included in those 
evaluations is the requirement that we review a significant 
number of sexual assault cases to assure that volunteers had, 
in fact, received the services that they needed.
    In addition, the legislation also contained exceptions to 
the prohibitions against disclosure of restricted reporting 
information, and one of those exceptions contained the language 
that if--if required by other State or Federal statutes, and 
the argument that we have been having, or had been having with 
the former general counsel, he didn't interpret that particular 
provision to include the IG Act even though it specifically 
said Federal statute.
    Mrs. Lawrence. Thank you.
    In your testimony today, you're saying that the Peace Corps 
has corrected course by issuing policies and procedures that 
grant OIG greater access to information; is that correct?
    Ms. Buller. That's correct.
    Mrs. Lawrence. So I'm pleased to hear that progress has 
been made. I'm pleased to hear that. What policies and 
procedures have been issued that has changed and given you the 
position that greater access to the Peace Corps information?
    Ms. Buller. Until we entered into the MOU, we basically had 
a blackout of information concerning restricted reports with 
the exception of three pieces of information, and that those 
three pieces are the country of the occurrence, the type of 
assault that it was, and the type of location, for example, if 
it was on public transportation. That was the only information 
that we got from restricted reports, and we only got that after 
a letter was written by the former chairman of this committee. 
So basically we got no information.
    After we entered into the MOU, we got more information. 
With the exception of certain pieces of PII and explicit 
details of the sexual assault, we can get access to that 
information. There is several problems that still remain with 
that, however. We are dependent on the agency to go through all 
of their records to determine what needs to be redacted from 
the information that we get. We are never going to be fully 
assured that the information that we got is the information 
that was contained in the files. We will never be able to go in 
and just do an audit of the system to make sure that they are 
adequately recording everything that needs to be recorded.
    One of the first things that we did years ago was to do an 
audit of the crime incident reporting system to make sure that 
the crimes that were being reported were being properly 
categorized. We could not do that type of an audit on the 
restricted reporting information. There are just a lot of 
prohibitions to general oversight that we still will not be 
able to do.
    Mrs. Lawrence. I want to thank you for that update. But one 
of the things that I'm hearing from you while we have made 
progress, we still have some issues that we need to deal with, 
so I want to get back, but I want you to know that we truly 
support the work that you do, and this committee is here to 
look at those issues as we move forward. Thank you.
    Chairman Chaffetz. Thank the gentlewoman. We'll now 
recognize the gentleman from North Carolina, Mr. Meadows for 5 
minutes.
    Mr. Meadows. Thank you, Mr. Chairman. Thank each of you for 
your testimony today.
    Mr. Elkins, I'm going to follow up on Mrs. Lummis' 
questioning and complete her question, and it deals with an EPA 
employee who we heard testimony here about him being a CIA 
agent for a lengthy period of time, actually, and you know, as 
a story that can only be made for television or a movie as it 
unfolded. You have been investigating that, but I'm troubled to 
hear, and that's what I want to followup on, is that you 
indicated that you tried to interview the Office of General 
Counsel at the EPA, and that interview was denied. Is that 
correct?
    Mr. Elkins. We tried to interview a--an attorney in the 
Office of General Counsel.
    Mr. Meadows. Right.
    Mr. Elkins. Yes. And we did not get cooperation from that 
attorney.
    Mr. Meadows. And so they--are they claiming the Fifth, or 
why would they not allow you to get to the bottom of what I 
think all Americans believe is just an unbelievable story?
    Mr. Elkins. Well, from what I understand, initially, she 
just did not want to talk to us. I'm not quite sure that there 
was any privilege given, but subsequent to that, I think one of 
the areas of privilege is attorney/client privilege being that, 
you know, she was a agency attorney and the agency was the 
client, and so in some sort of way they thought that----
    Mr. Meadows. In a twisted way, attorney/client privilege.
    Mr. Elkins. It does not apply.
    Mr. Meadows. I'm sure we have a few attorneys out here who 
would have a hard time with that argument; would not you agree?
    Mr. Elkins. So, absolutely.
    Mr. Meadows. Okay. So let us go on a little bit further 
because the chairman, in his opening questioning, talked about 
another employee who had an issue with an intern and 16 other 
alleged offenses of a sexual nature, and yet there was a delay 
there in terms of getting you the information; is that correct, 
Mr. Elkins?
    Mr. Elkins. That's correct. We were not able to get all of 
the information.
    Mr. Meadows. So because of this delay, we put potentially 
other women in harm's way; would you agree with that?
    Mr. Elkins. I would agree with that, yes.
    Mr. Meadows. So if we are doing that, that this delay of 
information that we are hearing that is a consistent theme, not 
only with you but I would imagine with a number of others in 
the audience here, has real consequences; wouldn't you agree 
with that?
    Mr. Elkins. It has very serious consequences.
    Mr. Meadows. So if it has serious consequences, what do we 
need to do to compel compliance, because I think it is very 
clear on both sides, both Democrat and Republican, that we 
think that this is an important issue, that the intent of 
Congress is that you should get all of the information and not 
some, and it shouldn't be subject to legal interpretation. What 
do we need to do to enforce compliance?
    Mr. Elkins. Well, that is the million dollar question. 
You're absolutely right. There is a gap in the IG Act that 
allows these sorts of things to happen. We can only go so far. 
I can only make recommendations if it is not a criminal matter. 
We only have so much authority, and we rely really on this body 
right here to come up with some solutions. We would be glad to 
sit down and talk to you about some ideas.
    Mr. Meadows. Well, here, while you're under oath, and we 
will not take the time today, but I would ask each one of you, 
but also anyone else that happens to be listening, we want 
names. We want you to name names of those that are presenting 
the problem, and let the chairman and the ranking member know 
that, and we will followup.
    So it is imperative that we get to the bottom of this so 
that no one else potentially gets harmed, whether it is a 
whistleblowers or anybody else.
    Mr. Horowitz, let me go back to you because one of my 
colleagues mentioned about the integrity committee and the 
importance of making sure that the IGs do their job and that--
my understanding is that the head of the integrity committee is 
the FBI.
    Mr. Horowitz. That's correct. They chair the committee.
    Mr. Meadows. So they chair the committee, and I know that 
on January 21st--and I would ask unanimous consent that the 
letter gets put into the record, Mr. Chairman. It was a letter 
from Chairman Chaffetz and Ranking Member Cummings and myself 
that really wanted us to get the report with regards to some 
serious allegations that were made, and I would ask unanimous 
consent.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Meadows. So do you not find it ironic or troubling that 
the FBI who fails to give you information, Mr. Horowitz, chairs 
this particular committee and yet they have not complied with 
this letter? Do you find that troubling?
    Mr. Horowitz. Certainly is a similar concern to what we 
have and the issues we face.
    Mr. Meadows. So if we are being stonewalled, to use Mr. 
Elkins' language, if we are being stonewalled in terms of 
transparency within CIGIE, would it not be a better place to 
have someone else chair that other than the FBI that may have a 
conflict of interest?
    Mr. Horowitz. I think there was a serious discussion about 
that last year in trying to figure out how to reform and 
address some of the concerns in the integrity committee, and I 
know there are many members who continue to have that question.
    Mr. Meadows. And do you have the----
    Chairman Chaffetz. The gentleman's time is expired. We 
still have members hoping to ask questions, so----
    Mr. Meadows. I will yield back. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. We'll now recognize the 
gentleman from California, and I want to make sure I pronounce 
his name properly. Is it Lieu?
    Mr. Lieu. Yes.
    Chairman Chaffetz. Very good. Mr. Lieu from California is 
now recognized for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chairman. I have a question for 
Ms. Buller. I agree with your interpretation of the Kate Puzey 
Peace Corps Volunteer Protection Act. I find it impossible to 
believe that Congress would have intended with this Act, which 
was designed to prevent sexual assault cases in the Peace 
Corps, to somehow obstruct IGs from investigating sexual 
assault cases.
    My question to you, because I believe that prior opinion by 
their prior general counsel is ridiculous. We now have a new 
general counsel. What is your office's relationship with the 
new general counsel at the Peace Corps, and do you know whether 
or not what the view is of the new general counsel about that 
legal opinion?
    Ms. Buller. My relationship with the new general counsel is 
very good so far. He has been there since October, and we have 
had several meetings and discussed a number of issues. I have 
not specifically discussed the legal opinion with him. I have 
spoken to the Director about it a number of times. I think it 
is fair to say that I don't think that she would be opposed to 
having it revisited. I don't know what the position of the new 
general counsel is on that, but that is something that we could 
find out.
    Mr. Lieu. Thank you. And then I have a question for the 
panel. When I served on active duty in the Air Force, I was a 
JAG, and one of my duties was to work with inspector generals 
and to review their reports and make recommendations to the 
commanding officer, but for this IG system to work effectively, 
you needed all employees to feel like they can share whatever 
it is they want with IG, completely free and clear. And my 
concern is, if we have a lot of one off memorandums of 
agreement and different specific issue areas, people get 
confused, they don't know what they can or cannot share, so it 
seems to me that we need to change the law.
    And I understand your concern, following up on what 
Congresswoman Norton said about if we were to try to make a 
change and it didn't happen, it can be used against you. What 
if instead we put in a pretty harsh penalty. We do not change 
the standard of the IG Act, we do not say we meant what we 
said. We basically add a pretty harsh penalty for violating it. 
Would that help you do your job?
    Mr. Horowitz. I think that is certainly one vehicle. That 
is frankly why we were appreciative of section 218 in the 
Appropriations Act because it starts to put forward that notion 
of we mean what we say in Congress in section 6(a), and through 
an appropriations bill you are obviously limited in what you 
can do, but that was a way that Congress tried to take that 
action, and I think what you mentioned, Congressman, is another 
way, vehicle to get at that issue.
    Mr. Lieu. Thank you. I yield back my time.
    Chairman Chaffetz. I thank the gentleman. Now recognize the 
gentleman from South Carolina, Mr. Mulvaney for 5 minutes.
    Mr. Mulvaney. Thank you, Mr. Chairman. I want to talk with 
all the witnesses a little bit about how and when this started.
    Mr. Elkins, I will start with you because you mentioned 
something that I was not familiar with, which was this 
memorandum of understanding, I think if I heard it correctly, 
between Homeland Security and the EPA that you were not 
involved with. When did that happen?
    Mr. Elkins. I don't have the date right off the top of my 
head, but I believe 4 or 5 years ago.
    Mr. Mulvaney. And I think that is what you said to Mr. 
Cummings. You have had this difficulty now from 4 or 5 years 
ago.
    Mr. Elkins. Yes.
    Mr. Mulvaney. Ms. Buller, I ask you the same question. Is 
there a point in time where you saw the practices changing?
    Ms. Buller. Yes, with the passage of the Kate Puzey Act. It 
was November 2011.
    Mr. Mulvaney. Okay. So November 2011.
    Mr. Horowitz, I think you testified that there was a FBI 
general counsel opinion in 2010 that was sort of a touchstone 
for the change in practices within the agencies that you 
oversee. By the way, what was the--what was the subject matter 
of that--of that general counsel's opinion?
    Mr. Horowitz. There were a couple of reviews going on. One 
was Fast and Furious, one was our review of the FBI's use of 
its material witness warrants and whether it was appropriate in 
exercising its national security authority there. The third was 
the FBI's use of national security letters under the PATRIOT 
Act, so again we are trying to conduct oversight over the FBI's 
use of authorities that Congress gave to it.
    Mr. Mulvaney. Mr. Elkins, do you remember, was there 
anything pending at your agency or was there something that 
happened that gave rise to the MOU? I am just trying to figure 
out why it suddenly happened.
    Mr. Elkins. You know, I think it was a matter of turf 
battles. I think it was personalties deciding that they wanted 
to carve out a certain section of authority for themselves, and 
they saw a conflict with the IGs role.
    Mr. Mulvaney. Okay.
    Mr. Elkins. That's my opinion.
    Mr. Mulvaney. All right. But what I'm hearing is it is 
2010, 2010 or 2011, and 2011. Thereabout is where it changed. I 
wish I could ask that question of everybody. We may end up 
doing that, if they saw a particular time when the weather 
changed, for lack of a better word.
    I do want to come back and talk to Mr. Horowitz about the 
question one of my colleagues asked you regarding the 
President's budget, to go back and cover it real quickly. We 
did add the language in section 218 last year. It passed with 
bipartisan support, folks on both sides of the aisle supported 
that language, and the President has taken it out of his 
proposed budget. I originally thought that that might be an 
oversight. The budget, as you have seen it, is something like 
this, and you could easily miss something like that, and I was 
surprised to see the language they included, and I'll read it 
to you again, because I think it merits a little bit of 
discussion.
    This is from the President's proposed budget in explaining 
that language coming out. It says, ``The Department is unaware 
of any specific materials the OIG believed necessary to its 
reviews but to which the OIG has not been granted access.''
    It is just not possible that that is a true statement, is 
it?
    Mr. Horowitz. What that statement does is gloss over how we 
get the documents ultimately.
    Mr. Mulvaney. Okay. Tell me about that.
    Mr. Horowitz. We do not get them pursuant to the IG Act, 
some of these documents. What happens is the FBI decides, based 
on its legal views, that other statutes limit their ability to 
hand it to us, so they go to the Deputy Attorney General or the 
Attorney General and say ``can we give it to them, do you give 
us permission to give it to them?'' The AG or the Deputy makes 
a determination that our review will help them manage the 
Department as opposed to the inspector general making that 
decision, an independent entity, it is being made--the 
Department, in essence, is deciding for itself whether our 
reviews will help them so they will allow us to look at the 
records.
    Mr. Mulvaney. I have been in government to know--long 
enough to know how you can gloss language, and I see exactly 
what you are talking about. I think the bottom line is that you 
still think that the language in 218 is necessary and helpful 
to you.
    Mr. Horowitz. It has been necessary. It has been helpful. I 
can--there have been several issues where--we had with the DEA 
recently where, before December--mid December when this became 
law, we were having difficulty getting those records. In two 
instances in January, we--I engaged with the Administrator of 
the DEA and an associate in the Deputy Attorney General's 
office who were very helpful in working through those issues, 
but we made clear we had a deadline under 218, and in our view, 
we needed the documents by the deadline, and so in those 
instances I can give precise examples where it has been 
helpful.
    Mr. Mulvaney. Let me ask you very quickly in the time I 
have remaining about an issue that you raised about the 
warrantless searches, because there was an article in The New 
York Times just last month about it. There was a new report 
that was released that had been declassified but still redacted 
and sent to The New York Times, and it actually quoted you or 
it cited you, it didn't quote you, that said that in the report 
on the warrantless searches that was delivered to the Times, 
the inspector general, Michael Horowitz, concluded the FBI was 
doing a good job, The New York Times' words, making sure that 
email accounts targeted for warrantless collections belonged to 
non-citizens abroad.
    And I guess my question is this: In--and I'm not asking you 
to give any classified information. I want to make that clear. 
In conducting the review that is the subject of the report that 
was recently made public, did you get everything that you asked 
for and everything that you felt you needed in order to conduct 
your investigation?
    Mr. Horowitz. To be clear, in each of the areas, we have 
ultimately gotten what we have needed to do our work. The 
problem has been in various reviews, and I don't recall that 
that is one where it came up, but certainly others related to 
the FISA, PATRIOT Act, others are ones where these questions 
have been raised. In fact, one of the categories that has not 
yet played out but that the FBI has indicated it has questions 
about whether it could share information with us is raw data 
from FISA matters, and so what Congress has asked us to do is 
oversee the FBI's authorities in those areas to make sure they 
are exercising appropriately. To do that, we have to know that 
we are getting everything and we are getting everything 
promptly. That is the challenge we keep facing over and over 
and over again.
    Mr. Mulvaney. Thank you, sir.
    Mr. Meadows [presiding]. I thank the gentleman from South 
Carolina. The gentlewoman from the Virgin Islands, Ms. 
Plaskett, is recognized for 5 minutes.
    Ms. Plaskett. Thank you very much. Good morning. Thank you 
so much for your patience and your professionalism in dealing 
with these issues. I wanted to direct my questions to Mr. 
Horowitz, and thank you for testifying. You testified before 
this committee last September and you raised several concerns 
about your office's ability with the granting of timely access 
to the information. And during that testimony, you stated that 
the FBI and other Department components initially refused the 
office's request; is that correct?
    Mr. Horowitz. That is the issue, yes, that we have been 
having.
    Ms. Plaskett. And that after that refusal, it was then 
elevated to another level and ultimately either to the Deputy 
Attorney General or to the Attorney General's office at which 
time the quote was, you were granted us permission to access 
the records by making the finding that our reviews were of 
assistance to them.
    Mr. Horowitz. Correct.
    Ms. Plaskett. And that the Department further stated that 
their intention to do so in future audits and reviews and that 
the current Department's leadership had supported our ability 
to access those records.
    Mr. Horowitz. That is correct.
    Ms. Plaskett. So the issue for the Department of Justice 
and FBI have been the MOU and the legal opinion that was given?
    Mr. Horowitz. The issue is that the FBI believes it needs 
to go through this process that they have set up. There is no 
actual MOU in place. This is a process they've set up in order 
to get that permission here.
    Ms. Plaskett. And that process was set up by what measure? 
What was the reason for them setting it up?
    Mr. Horowitz. There was a--it was in response to the FBI's 
legal opinion.
    Ms. Plaskett. Legal opinion. So the legal opinion----
    Mr. Horowitz. It was not vetted through us.
    Ms. Plaskett. Their legal and their belief constrains them 
from freely giving----
    Mr. Horowitz. Correct.
    Ms. Plaskett [continuing]. Information related to grand 
jury, wiretap, Fair Credit Reporting Act information, those 
types of----
    Mr. Horowitz. And maybe others.
    Ms. Plaskett. And other types of information.
    Now, it is my understanding that the Department has 
ultimately granted access to the requested reports and that has 
there ever been an instance that you already stated that you 
did not receive that?
    Mr. Horowitz. We are not aware of any.
    Ms. Plaskett. You are not aware of any?
    Mr. Horowitz. Right.
    Ms. Plaskett. But it is a timing factor?
    Mr. Horowitz. It is a timing factor, and I will add, it is 
a waste of resources factor.
    Ms. Plaskett. Correct.
    Mr. Horowitz. The time it takes me, and frankly, my staff 
to do it, and the FBI has built this mechanism to review these 
records solely for the purpose of having to go to the Attorney 
General, the Deputy Attorney General to ultimately give them to 
us.
    Ms. Plaskett. Uh-huh.
    Mr. Horowitz. It is--you----
    Ms. Plaskett. Well, having worked on the staff of a Deputy 
Attorney General who has oversight over 9,000 attorneys, many 
different agencies and divisions within the Department of 
Justice, I can imagine that it would take quite a number of 
months in some instances before you would receive--you would 
come up in the cue to receive the information and the 
permission, correct?
    Mr. Horowitz. And to be fair, the Deputy Attorney General, 
the Attorney General have been very supportive of getting that 
material to us. The problem is, at every step of the process 
there is a delay. My staff has to go through the issues. The 
FBI has to review the records. It then gets elevated to me. I 
elevate it to the general counsel in the FBI or the Director or 
the Deputy Director. It then goes from there up. All of that 
takes time.
    Ms. Plaskett. So now, am I understanding also is that the 
Department of Justice has stated that they are in a legal 
review of this to determine if this should be--this process 
should be changed?
    Mr. Horowitz. Correct.
    Ms. Plaskett. And what is the status of that review?
    Mr. Horowitz. To my understanding, all of the briefing, if 
you will, was submitted to the Office of Legal Counsel. My 
office sent materials. CIGIE sent its submissions. I understand 
other components sent submissions back in May of last year. We 
have heard at various times we might get the opinion in the 
fall, later in the year, but we still have no opinion.
    Ms. Plaskett. No deadline has been given for the opinion?
    Mr. Horowitz. Not that I am aware of.
    Ms. Plaskett. So it would be helpful to you for this 
committee to either push forward that opinion to be granted or 
a change in the law?
    Mr. Horowitz. Agree completely, Congresswoman. From our 
standpoint now, any opinion is what we are looking for. 
Hopefully it is a good opinion.
    Ms. Plaskett. Uh-huh.
    Mr. Horowitz. But frankly, if it is not a--we are operating 
under the bad-opinion outcome.
    Ms. Plaskett. Right.
    Mr. Horowitz. That's what's been set up, and we are all 
struggling with it because of the lack of a decision. We get a 
decision, my guess is Congress would then--if it is bad, 
Congress, as we have talked about today, I think would probably 
act pretty promptly.
    Ms. Plaskett. Well, it appears that you are operating under 
a very old law which has broad scope for the Inspector 
General's Office, and contrary to maybe my colleague's opinion, 
the law is not stagnant, and so there is constant changes that 
occur within the law, particularly in areas where technology or 
issues or circumstances change which will allow for opinions or 
further clarification or some other mechanism to make sure that 
the law is applicable to the time in which you are operating.
    Mr. Horowitz. There certainly are some issues where that 
comes up. I do not think, frankly, in the ones that the FBI has 
raised with us, FBI--grand jury, the law has been the same all 
through. Title III, it has been the law all the way through, 
but there are other areas where we havehad discussions about 
how evolving information and technology impacts our access.
    Ms. Plaskett. Well, I am thankful that the Department is 
working with you, and I am hopeful that this committee will be 
able to move that along much faster. Thank you so much, and I 
yield the balance of my time.
    Mr. Meadows. The gentlewoman's time is expired. The chair 
recognizes the gentleman from North Carolina for 5 minutes, Mr. 
Walker.
    Mr. Walker. Thank you, Mr. Chairman. Thank you, panel, and 
to all the IGs who have been sitting out here for right at 2 
hours now. I will not use my full 5 minutes by trying to get 
strictly and directly to the point.
    The pattern here of obstruction is obviously at this point 
not an isolated incident, and specifically I want to dial 
down--Ms. Buller, the ``u,'' a short ``u'' or a long ``u,'' is 
that Buller or Bueller?
    Ms. Buller. It is Buller.
    Mr. Walker. Okay. Buller. All right. Fair enough. I want to 
talk specifically or work toward a question here. I find some 
of the things that you have shared today very concerning. My 
wife helped launch the sexual assault nurse examiner program at 
Wake Forest University Baptist Medical Center, and as a 
minister for 15 years, I have counseled some people who walked 
with some of the darkest times of their life. These victims, 
there are many obstacles, I will put it this way, to come 
forward to share such tragic moments in their life, and I'm 
troubled, I believe your words were, though there have been 
improvements, specifically after the last two committee 
meetings, that there have been improvements, challenges remain.
    And I struggle with the fact that there are challenges 
remaining in such a sensitive and potentially damaging area. I 
do not understand that because we are not dealing with just 
unethical behavior. We are dealing with criminal behavior in 
some of these incidents. So my question for you today is 
because of the obstructions that you continue to face from 
whoever, unnamed sources at this point, hopefully that will be 
resolved in the future, is it fair to say that we could be 
protecting these predators--and I will say predators because 
even, and the FBI has been thrown out a few times today, 
according to the FBI, the one behavior pattern that they have 
no proof can be amended are those who are continually sexually 
assaulting others.
    So my question is, are we, at some point, if we cannot 
remove these barriers or challenges, are we protecting these 
predators who, in remote areas, have no law enforcement people 
to contact?
    Ms. Buller. I think the issue we have is with restricted 
reporting, and the way--the reason it was created was to allow 
people to come forward and get the services they need without 
law enforcement necessarily launching an investigation, and we 
respect the whole concept of reporting and why it was put into 
place.
    The problem being that if law enforcement does not find out 
about it, then there is nothing that law enforcement can do, 
but that is a choice that is being given to the victim, and it 
is a legitimate choice, and Congress saw that as a legitimate 
choice when they created the Kate Puzey Act, and our problem is 
not with restricted reporting. Our problem is with the fact 
that restricted reporting has been used to keep information 
from my office that we need to perform our oversight 
capabilities. Even if we had access to the restricted reported 
information in total, my law enforcement officers, by statute, 
could not go out and investigate.
    Mr. Walker. What do you think may be the first immediate 
approach is as far as resolving the frustration?
    Ms. Buller. What I did would be to have the Peace Corps 
retract the legal opinion, because it is the legal opinion that 
was the impetus for all of the policies and procedures. To date 
it has not been retracted. The general counsel left the agency, 
I believe, in October, and we do have a new general counsel. We 
continue to work with him, and hopefully we can get that 
retracted, but as I said in my testimony, if we get it 
retracted for us, it does nothing to help Art and Mike 
Horowitz.
    Mr. Walker. Right. A real problem. Thank you Mr. Chairman, 
I yield back.
    Chairman Chaffetz. Thank the gentleman. Will now recognize 
the gentleman from California, Mr. DeSaulnier. Did I pronounce 
that properly?
    Mr. DeSaulnier. That was great, Mr. Chairman. I apologize.
    Chairman Chaffetz. I can not do any better than that. So I 
will now recognize you for 5 minutes.
    Mr. DeSaulnier. I respond to almost anything close to that, 
Mr. Chairman.
    Well, I want to thank you all for the job you do. I really 
do not think we could overstate the importance of the integrity 
of the work you do. As someone who believes in the possibility 
of government being a force of enormous good in this country, I 
think that those who lack that, it really comes down to trust.
    So, Mr. Elkins, I want to talk to you specifically about 
some of your comments about the Chemical Safety Board. As you 
may or may not know, in the area of California that I 
represent, we have a very large intensity of chemical and 
hazardous material facilities. It was very important to my 
predecessor that this group work well. Just last week we had a 
major report from the board on a major incident at the Chevron 
refinery in Richmond that just narrowly missed killing or 
seriously injuring 18 constituents.
    So knowing of the importance, first let me ask you a 
general question. You said about not reaching a judgment, this 
balance that you all have to face and then the erosion of 
trust. Usually it takes two parties, whether it is deliberate 
or not, to have that happen, and some of the other comments by 
some of my colleagues. Could you--you have done this for a 
while. Have there been incidents from your side, from the IG 
community, where you wish that the material you had gotten had 
not been used in a manner that it had been used that helped to 
get us to this point where there is an erosion of trust?
    Mr. Elkins. Off the top of my head, I can not really think 
of any examples where that has occurred, but let me just state 
that we are not above the law.
    Mr. DeSaulnier. Understand.
    Mr. Elkins. We have an obligation as well, and we could be 
subject to sanctions, criminal prosecution if we violate the 
law. So it is--I am not talking double standards here.
    Mr. DeSaulnier. Okay. And then specifically to the CSB, and 
I am familiar some of the personality issues that have happened 
at the board. So in your testimony in September, you issued a 
7-day letter to try to get the information of the private 
emails, and that you said that it was the only time in your 
tenure that you had to issue a 7-day letter. Is that accurate?
    Mr. Elkins. That is accurate, yes.
    Mr. DeSaulnier. So in spite of that, you were able to 
complete your investigation, and that led you to, ``evidence 
sufficient to support a conclusion that the chairman and two of 
his senior officials violated the Federal Records Act in 
implementing regulations by using non-governmental email 
systems.''
    Now, in your investigation, was that deliberate? Did these 
three individuals deliberately use their private emails to 
avoid the Federal Records Act?
    Mr. Elkins. It would sure seem that way, yes.
    Mr. DeSaulnier. And are there consequences for them, either 
individually or the board?
    Mr. Elkins. There definitely are consequences.
    Mr. DeSaulnier. Have there been consequences implemented?
    Mr. Elkins. Well, the consequences are that we sent that 
information on to the White House with--with the ROI, and then 
the White House would then have to take actions. And the White 
House, as I said earlier, has issued a letter directing that 
they comply with the law.
    Mr. DeSaulnier. So this is an issue of compliance. And I 
find in my previous life in local and state government is 
always a big issue, whether it is a civil grand jury or it is a 
legislative body trying to get people to comply, and it goes to 
a little bit about some of the concerns by previous speakers 
about the Peace Corps as well.
    So in terms of compliance specifically to CSB, are you 
satisfied that they are complying now with the letter of the 
law?
    Mr. Elkins. No, I can not say that I am totally satisfied, 
because they, again, have not affirmed that they have complied 
with our requests, so we are still waiting. So until I receive 
that affirmation, I do not know what I do not know.
    Mr. DeSaulnier. Okay. And, Mr. Horowitz, and again, my 
personal experience, whistleblowers are really important, but 
how you handle them is really important. So as you work on your 
working group, and just briefly if you could mention some of 
the struggles, my experience may be accurate or not, but it is 
mine, the front end and the back end are two of the most 
important, so trying to find out if somebody actually is valid 
and has objective material, and I wonder if you could comment 
on that, and then the back end when it comes to retribution.
    And then last, I have a question on a different subject 
matter. Maybe you could tell me, when you allocate resources 
for investigations, what percentage do you put to just getting 
the information, and has that changed over time?
    Mr. Horowitz. On the whistleblower issue, I could not agree 
with you more, Congressman. I think it is very important for 
IGs and our staffs to respect allegations that come in, 
thoroughly look at them, evaluate them, respond. I have found 
that simply the response and the interaction with folks coming 
forward is very important even if you ultimately conclude there 
is not merit or there is not sufficient information to 
corroborate the allegation. So that is, I think, very important 
on the front end.
    And then on the back end, I agree with you. If there is 
certainly confirmation of the allegations, making sure that 
there are processes in place and protections in place to ensure 
that whistleblowers who suffer retaliation have a vehicle to 
come forward and get remediation for what occurred and get it 
done promptly. And, frankly, one of the concerns, as I said 
that I have about the issue that is in the letter today, is 
that it comes up in two whistleblower cases where we have 
outstanding requests for several months, and the reason we are 
being asked to wait even longer through this week or next week 
is so the FBI can determine what are things we do not get 
access to so the Attorney General Or the Deputy Attorney 
General can decide we should get access to it. That is a 
problem also in terms of the message to a whistleblower as they 
look at issues if they see that process.
    Mr. DeSaulnier. Thank the gentleman. Appreciate it.
    Chairman Chaffetz. We will now recognize the gentleman from 
Georgia, Mr. Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    The law is very clear when it states that all records, 
reports, documents, people and so forth are to provide the 
information that you need, and, of course, that is the issue 
that brings us here. You have stated clearly, each of you, that 
in order to do your job, you need 100 percent of the 
information that you request. That being the case, what 
percentage would you say of that 100 percent do you not receive 
or is delayed to the extent that it is problematic? Just--and I 
realize this is just a guess, but what would you say?
    Mr. Horowitz. Our issue has been the delay issue and the 
timely receipt of it, and the Congressman's----
    Mr. Hice. Okay.
    Mr. Horowitz [continuing]. Question as well, which is it is 
taking a substantial amount of my time as inspector general and 
a significant time of certain teams of mine who get delayed. 
Ultimately they may get the records, but it is taking us, in 
some instances----
    Mr. Hice. Okay. How much is delayed?
    Mr. Horowitz. Months----
    Mr. Hice. Okay.
    Mr. Horowitz [continuing]. Of time.
    Mr. Hice. The rest of you experience a similar type of 
thing?
    Mr. Elkins. Yes.
    Mr. Hice. Okay.
    Ms. Buller. In my case, we do not--up until recently, did 
not get the records, period, until we entered into the MOU.
    Mr. Hice. Okay. So we have a whole gamut of issues here: 
Significant delays to the extent that you are unable to do your 
job or not receiving the material at all?
    All right. Last year Attorney General Holder testified 
before the Judiciary Committee in April at that time regarding 
this type of issue. He said, ``I'm not sure exactly what the 
process is, but I do not think that it is anything that has had 
a negative impact on any investigation that he's tried to 
conduct.''
    What is your assessment of that statement? It sounds like 
it is not true.
    Mr. Horowitz. Well, the impact on our investigations has 
not been that we did not ultimately get the records. The impact 
on our investigations has been the time delay, and if there are 
findings associated with our efforts, that means we do not 
learn of them early enough, the Attorney General does not learn 
of them early enough, and the Congress does not learn of them 
early enough.
    Mr. Hice. But the Attorney General said that he is not 
aware of anything that has had a negative impact at all on the 
investigation, and that would not seem to be true.
    Mr. Horowitz. Well, as I mentioned, that is the impact we 
have had, that it's had on us, has been the delay and the delay 
in our ability to do our work and get our reports done, and 
that does have an impact on--on our ability to do what you--
what Congress has instructed us to do.
    Mr. Hice. All right. I understand. Mr. Horowitz, you 
mentioned that during this time when you experienced personally 
in 2010 delays and the type of things that you are 
experiencing, that was right in the middle of some of the 
issues that were being dealt with, the PATRIOT Act, national 
security issues, Fast and Furious.
    Mr. Horowitz. Correct.
    Mr. Hice. There were a number of issues taking place at 
that time. And we have also determined today that our system 
around here in Washington operates with authority, people do as 
they are told. Is it reasonable to the average person hearing 
this information today to conclude that it would appear as 
though somewhere someone in whatever position of authority has 
been able to direct agencies to either withhold or delay 
information? Would that be a reasonable conclusion?
    Mr. Horowitz. In my instance, it was an FBI general counsel 
opinion that--and it was from--through the FBI back in 2010.
    Mr. Elkins. In my opinion, generally it starts at the top 
in terms of messaging, in culture. If the top says it is okay 
to do it, then everybody else will fall into line.
    Mr. Hice. Okay.
    Ms. Buller. In my case, it was a general counsel opinion 
that was issued that caused the problem.
    Mr. Hice. Okay. So this--the problem that you are facing is 
coming from somewhere at some higher level that is giving 
directives and it is going through. So as one of my colleagues 
mentioned a while ago, we need some names. If you are aware of 
any, we--in order to get to the root and pull the root of this 
problem up, we need some names, we need something to go by.
    Let me shift gears real quickly in the brief moment that I 
have left. Have--in the midst of your requesting information, 
have you, to your knowledge, ever received back information 
that was edited, altered, redacted in any way?
    Mr. Horowitz. We have initially received redacted 
information. We have also learned through our reviews that 
reports--productions that we were told were complete, it turned 
out when we interviewed witnesses were not complete, and we had 
to go back and ask for supplemental records.
    Mr. Hice. Okay. Mr. Elkins?
    Mr. Elkins. Yes. I ca not think of any instance where we 
have received information that has been redacted.
    Mr. Hice. Okay. Ms. Buller.
    Ms. Buller. Well, in our case, pursuant to the MOU, they do 
redact information before they give it to us.
    Mr. Hice. Okay. So we have a multiple issues of problems 
here, where you are not receiving information, you're receiving 
delayed information, or you're receiving information that, in 
one way or the other, is inaccurate when you receive it?
    Mr. Horowitz. That--we are being told it is complete, and 
it turns out we find other records along the way.
    Mr. Hice. Okay. Thank you.
    Chairman Chaffetz. I thank the gentleman. I now recognize 
the gentleman from Pennsylvania, Mr. Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    The premise of the hearing today is getting full and 
efficient access to the information necessary to conduct 
effective oversight, but Congress needs to do oversight on the 
Inspectors General as well. In February 2014, as he said here 
today, Mr. Connolly and I wrote a letter to Deputy Director 
Colbert, inspector general Fong, and Deputy Assistant Director 
Campbell to raise serious concerns over the troubling 
activities of Treasury inspector general for Tax 
Administration, TIGTA for short, J. Russell George, with 
respect to TIGTA's May 14, 2013, final audit report named 
``Inappropriate Criteria Were Used to Identify Tax Exempt 
Applications for Review.'' This included IG George appearing to 
have officially sanctioned audit processes and procedures that, 
both in appearance and in reality, indicate TIGTA's Office of 
Audit was conducting an audit on behalf of and in consultation 
with Republican members to the exclusion of Democratic members 
and staff.
    We concluded that TIGTA produced a fundamentally flawed 
audit that harmed the public interest to such a severe extent 
that trust and confidence in TIGTA's independence, ethics, 
competence and quality control have been called into question 
and its effectiveness had been threatened.
    We urged the Integrity Committee to investigate the matter. 
Their response was ridiculous. I am going to read it to you.
    ``Dear Ranking Members Connolly and Cartwright, the 
Integrity Committee, IC, of the Council of Inspectors General 
on Integrity and Efficiency recently reviewed the allegations 
you provided about non-conformity to GAGAS and evasiveness in 
testimony before Congress by J. Russell George, inspector 
general for Tax Administration. Your office referred these 
matters for IC consideration on February 5, 2014.
    The IC reviewed the allegations against Mr. George and 
requested his response. The IC reviewed the response from Mr. 
George and determined that his response sufficiently addressed 
the allegations, thus, the IC determined the matter did not 
meet the threshold for further consideration and has closed the 
matter. Thank you for your attention to this matter. Sincerely, 
Angela Byers, Acting Chair, Integrity Committee.'' That was 
their response.
    In September 2014, my office and the Connolly office 
requested a copy of the complete unredacted response that was 
submitted to the integrity committee by Mr. J. Russell George, 
and we still have not got a response. If his response was so 
comprehensive and beyond reproach, then why can't we even see 
that response?
    Look, this is about transparency and consistency. We would 
like--we would like to see all the documents related to this.
    Mr. Horowitz, can I get a promise from you that you will 
share that unredacted response with us in a timely fashion?
    Mr. Horowitz. Congressman, I learned about this last night 
from Congressman Connolly's staff. The statute that creates the 
integrity committee makes the FBI as the custodian of records 
for integrity committee matters. So I will follow up and ask 
the FBI about the records, but I--I know nothing more than what 
you just referenced in the letter, and need to follow up on 
that.
    Mr. Cartwright. Will you do--will you follow up?
    Mr. Horowitz. Yes, I will follow up----
    Mr. Cartwright. Thank you, sir.
    Mr. Horowitz [continuing]. On the request.
    Mr. Cartwright. Because I hope that you and Congressman 
Connolly and I and IG George can work together to get the 
information we need so that Congress can do its necessary 
oversight. Responses like that are just ridiculous and cannot 
be tolerated if we are going to believe in transparency and 
consistency in our oversight process. Do you agree with that?
    Mr. Horowitz. I do. And I have heard concerns raised by 
members of both parties about the Integrity Committee and 
making sure it is operating more effectively in terms of 
timeliness as well as transparency concerns, and something that 
we need to talk about. And I think, frankly, some of them are 
statutory based on how the Integrity Committee was created. So 
I think part of it is us talking with the FBI about the 
processes, but part of it is also talking about whether there 
needs to be any fixes to the statute.
    Mr. Cartwright. Then I thank you for your commitment, Mr. 
Horowitz. And, Mr. Chair, I yield back.
    Chairman Chaffetz. Thank the gentleman. Now recognize the 
gentleman from Oklahoma, Mr. Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    The three of you and scores of your colleagues that stand 
with you believe that the IG Act is clear in granting you the 
authority to obtain all the documents, and that has been 
discussed many times respective to each department. A 
Department of Justice Office of Legal Counsel opinion is 
pending that has been referenced that will either agree or 
disagree with the law. An affirmative ruling solves the 
dispute, a negative ruling will provide legal and congressional 
options to uphold the law against the ruling.
    Given the importance of the OLC ruling to unconstipate the 
timely review of information, what can Congress provide, in 
your view, to help expedite the ruling so you can do your job?
    Mr. Horowitz. I think continued contact with the Justice 
Department by the committee and Members of Congress, as I have 
been doing, to try and find out when we can expect an opinion.
    Mr. Russell. Mr. Elkins?
    Mr. Elkins. I will concur with Mr. Horowitz.
    Mr. Russell. Ms. Buller?
    Ms. Buller. From personal experience, I have noticed that 
every time Congress has gotten involved in our issue, we have 
seen movement, at least as far as Peace Corps is concerned, so 
I concur with what has been said.
    Mr. Russell. Would there be any other options beyond asking 
when a date could be expected? I mean, obviously they have told 
you that it may be in the fall, it may be--we are not sure. 
Congress could also get that type of an answer. What other 
options might be available?
    Mr. Horowitz. Well, certainly something I think we will 
discuss and think about and talk with the committee as to 
whether there are other options and other issues. As I said, I 
think Section 218 in the Appropriation Act has had a positive 
impact generally. Obviously there has been an issue that I have 
addressed today, but that is a vehicle by which there has been 
some change. And I concur fully with what inspector general 
Buller said, which is every time Congress has gotten involved, 
it has resulted in attempts to address some of our concerns.
    Mr. Russell. Other members of the panel?
    Okay. Thank you, Mr. Chairman. I yield back my time.
    Chairman Chaffetz. Thank you. This--this marks the halfway 
point of our hearing, and--hang in there. We are getting there. 
We are getting there.
    All right. We will now recognize the gentleman from 
Georgia, Mr. Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman. And--thank you, Mr. 
Chairman.
    And thank all of you for being here and thank you for what 
you do. Please don't ever think that what you do is not 
important, please don't ever think that what you do is not 
appreciated. It is very much so.
    I can't help but get the impression, and please correct me 
if I am wrong, but at least in certain circumstances, it seems 
to be us against them. How did that evolve? I mean, what 
happened? What--how did we get to that point? I mean----
    Mr. Horowitz. It would--hard for me to say that, the latter 
part, because I was not there in 2010, but it is interesting 
you say that, because when I talk to my staff and they talk 
about what it was like before 2010, it was, we go--we are part 
of the Department of Justice, we are independent, but we are 
within the Justice Department. We would go to our components 
like the FBI and say, we are investigating the Hanssen spy 
matter. We need access to records. The discussion would be 
about how do we make sure we are looking at them in the 
appropriate place with the right people who have the right 
clearance, not, we have got to look at them, we are not sure if 
you are entitled to them. A completely different dialog and, 
frankly, I will go back to what Art said, culture. Inspector 
general Elkins has it just right. There was a sea--a 
significant change in the attitude with the relationship.
    Mr. Carter. Mr. Elkins?
    Mr. Elkins. In addition to that, I think in some cases 
agencies do not really understand the role of an IG and they 
see the IG has an adversary rather than as a vehicle to help 
the agency be more efficient and more effective, and that 
relates to culture as well, but if you come in with the 
attitude that, you know, the IG is an adversary, then that is 
going to set a--you know, it is going to set a tone. So I think 
that is a part of it.
    Mr. Carter. Okay.
    Ms. Buller. Well, from my perspective in the Peace Corps, 
we really did not have that mentality before the issuance of 
the general counsel's opinion. We had country directors who 
would call us asking for information, asking if this would be 
the type of case that we would normally take, things like that.
    Since the issuance of the general counsel's opinion, that 
kind of communication has pretty much stopped, which is really 
detrimental to volunteer victims of sexual assault in 
particular, because there are so many opportunities that they 
could get information from us on how to do things, how to 
process, for example, a safe kit, a rape kit that a country 
director does not feel comfortable even calling and asking 
anymore.
    Mr. Carter. All right.
    Mr. Horowitz. I was just going to say, and I want to make 
clear also, I have got a lot of components in the Justice 
Department. Most of them are still having that relationship. So 
we are doing a lot of work, for example, on the Federal Bureau 
of Prisons. We have a very strong working relationship with 
them. I could name many more components like that. So I do not 
want to leave that impression, but we do so much work with the 
FBI and the DEA, that that is where a lot of our work ends up 
focusing.
    Mr. Carter. Okay. Well, very quickly, and, you know, any 
time we are in a situation like this, we want to do some self-
assessment. Mr. Horowitz, you said there were 72 IGs and that 
40-some-odd had signed off to this. Let's talk about those who 
did not. What are they doing differently? Are they not having 
any problems, or were they intimidated to not sign, or can we 
get any best practices from them? You know, let us----
    Mr. Horowitz. I think, frankly, you'd have to talk to the 
others who decided not to sign to understand why. I do not 
think it was necessarily because they--that the issues they 
were facing were the reason, or were not facing, were the 
reasons for their decision, but I think I would suggest you 
would really need to talk to them.
    Mr. Carter. Okay. Fair enough. Fair enough. Okay.
    Very quickly, because I want to get this in. The 
recommendations that you make, particularly as it pertains to 
saving money, which is one of the primary reasons, if not the 
primary reasons that I am in Congress, it is because of an $18 
trillion debt that I do not want to leave for my children, I do 
not want to leave to my grandchildren, none of you do. Are 
those recommendations being looked at? Are they being adhered 
to? What----
    Mr. Horowitz. We followup on all our recommendations and we 
find, generally speaking, they are implemented and they are 
followed. We have issues at times, but we have a very strong 
track record of--at the Department of following up on them.
    I will add one way to save money and time, frankly, is 
resolve this issue, because it is causing a waste of resources 
and time on all sides.
    Mr. Carter. Great.
    Well, Mr. Chairman, that was the quickest 5 minutes I have 
ever seen, but nevertheless----
    Chairman Chaffetz. They get faster and faster, I guarantee 
you.
    Mr. Carter. Okay. Nevertheless, please understand, whatever 
the ruling is of the OLC, regardless, what you do is important, 
what you do is appreciated. If you continue to have problems, 
please, please come back to us.
    Chairman Chaffetz. Thank the gentleman. Now recognize the 
gentleman from Alabama, Mr. Palmer, for 5 minutes.
    Mr. Palmer. First of all, thank each one of you for your 
service and for coming today.
    Mr. Elkins, I believe you were asked earlier about the 
EPA's Office of Homeland Security. Is this the office that 
utilizes armed agents?
    Mr. Elkins. No. They should not have any armed agents.
    Mr. Palmer. Are you aware, or do you know what office or 
division of EPA has armed agents?
    Mr. Elkins. Sure. That would be the CID division.
    Mr. Palmer. Okay. Has anyone contacted your office about 
the use of these armed agents against private citizens or 
municipal governments at any level?
    Mr. Elkins. Not that I am aware, but we may have hotline 
complaints that just have not reached their way to me as of 
yet.
    Mr. Palmer. Okay. There is an issue of this that I would 
like to address later, Mr. Chairman, this may not be the 
appropriate forum for that, of the EPA using armed agents, 
particularly against a small town in Alabama where they showed 
up at a waste treatment facility, full body armor and weapons 
drawn, and I would think that would be an area that would be of 
interest to the Inspector General's office in terms of 
oversight. That is a little heavy-handed.
    Ms. Buller, in regard to the situation at the Peace Corps, 
were any of the people who were involved in the sexual assault 
prosecuted?
    Ms. Buller. We have had instances where we have had 
prosecutions for sexual assault. Most of the instances of 
sexual assault involved host country nationals, so they are 
prosecuted in their country.
    Mr. Palmer. Were there any cases where the prosecution may 
have been impeded?
    Ms. Buller. As far as the--this new policy that's been 
implemented?
    Mr. Palmer. Right.
    Ms. Buller. it is only been in place for about a year. And 
if a volunteer chooses to go restricted reporting, there is no 
prosecution that's done.
    Mr. Palmer. Okay. Then can you speculate, or maybe you can 
give an answer as to why your investigation would have been 
impeded?
    Ms. Buller. It would not necessarily have been my 
investigation, it would have been the investigation of the host 
country where the incident occurred, but when a person decides 
to file a restricted report, it does not go outside of a 
specific chain of people, so there would be no possibility for 
the local law enforcement to get the information.
    Mr. Palmer. Okay. And, Mr. Horowitz, I have a question for 
you in regard to the overall discussion that we have had here 
today. Do you think any of these delays would constitute 
obstruction?
    Mr. Horowitz. They certainly have had a significant impact 
on our reviews. The--the time ranges are very significant. 
Ultimately we have gotten--or we are told we have gotten the 
records, so I think that is where it stands at this point. They 
have certainly--for the time when we are not getting them, they 
have obstructed us and prevented us from completing our work in 
a timely fashion.
    Mr. Palmer. In regard to a timely fashion, then, 
particularly where it involves political appointees, would 
that--could that be considered an act of running out the clock?
    Mr. Horowitz. I do not know specifically what the motive is 
for why this is occurring. Frankly, it started with the FBI 
with the general counsel, who is not a political appointee, who 
came in. But there certainly could be more done to resolve this 
quickly in terms of the OLC opinion, it seems to me. We--again, 
we just need an opinion. Hopefully it will be good, but if it 
is not good, that will allow Congress to look at what is 
problematic from the Department's standpoint and then correct 
the problem.
    Mr. Palmer. Well, to echo what Congressman Carter said, we 
do appreciate the work that you are doing. I think it is 
absolutely critical that we have transparency and oversight and 
accountability, and anything that can be done to expedite your 
work needs to be done. I think we owe it to the American people 
to restore confidence in our government. And I thank you for 
the job you are doing and for your willingness to come before 
us today.
    I yield the rest of my time, Mr. Chairman.
    Chairman Chaffetz. Thank you. Now recognize the gentleman 
from Texas, Mr. Hurd, for 5 minutes.
    Mr. Hurd. I'd like to add my thanks to you all on coming 
here today. My first question is actually for Mr. Elkins. As a 
former CIA officer for 9 years, I was undercover. The case of 
John Beale is very interesting to me. It is usually the other 
way around. We are saying we are someone else rather than 
someone saying they are one of us. What do you need in order to 
continue that investigation and bring that to closure?
    Mr. Elkins. Well, the--Mr. Beale's case has been closed. He 
is serving time in prison----
    Mr. Hurd. Okay.
    Mr. Elkins [continuing]. Right now.
    Mr. Hurd. Well, good work.
    And my next question is for Ms. Buller. You know, in the 
documents you provided talking about, our push for access is 
about fulfilling our collective responsibility to ensure that 
we, Congress, the Peace Corps and the OIG do everything we can 
to ensure our volunteers, who sacrifice so much time when 
serving in remote corners of the world, receive the services 
they need when they are victims of assault. And my question to 
you is how can we better fulfill our collective responsibility? 
You had mentioned earlier about having the Peace Corps retract 
their general counsel opinion. What else--what else can be 
done?
    Ms. Buller. Well, short of Peace Corps retracting the 
general counsel opinion, the only other alternative I can see 
is Congress taking some sort of action to make it perfectly 
clear that the IG Act means what the IG Act says, and that we 
have access to all of the information.
    Mr. Hurd. Excellent. Thank you for that.
    Mr. Horowitz, my next question, in your opening statements, 
you talked about the Computer Matching and Privacy Protection 
Act. And how is that specifically hindering the ability of the 
IG community to execute its responsibilities?
    Mr. Horowitz. The issue there is that IGs in one department 
have access to certain information; IGs in another department 
have access to information. And one of the things that we try 
and do, for example, is try and detect improper payments. Where 
are individuals getting payments from two agencies that are 
duplicative, that they should not get both, they might be 
entitled to neither, but they are certainly not entitled to 
both. And so that would be an example where if we could 
exchange that information and speak about--and match the data 
in an easier way through our own initiative, that would be 
helpful to us.
    Mr. Hurd. So do IGs not have the ability to directly access 
information from servers?
    Mr. Horowitz. We do not have the--that is a major issue for 
several IGs directly, which is we do not have the ability to 
directly access that in our own agencies, and we also do not 
have the ability to access data or information across agency 
without going through the process in the Computer Matching Act 
which requires us, for example, to go to the agency's 
leadership to decide if they should give us the authority to be 
able to match information that would look at potential 
misconduct or wrongdoing within the agencies.
    Mr. Hurd. So why do some IGs have direct access and others 
don't?
    Mr. Horowitz. By statute as well as by approval through the 
various processes that are laid out in the statute.
    Mr. Hurd. So does this impact an IGs independence?
    Mr. Horowitz. It would certainly strengthen and--our 
ability to be more independent, because to get those approvals 
for many of us, we need to go through our agency head. It is 
not something that I as IG have the authority to decide. I have 
to go through the agency leadership to get that authority, and 
so that does impair our independence.
    Mr. Hurd. So if the IG has to request access to information 
from someone within the agency itself, does this tip off the 
agency that the IG is conducting an investigation?
    Mr. Horowitz. They would normally be aware generally of our 
review. it is, frankly, more a concern that they are managing 
the documents. And, as my colleagues said, you do not know what 
you do not know. We do not know how thorough it is, how 
promptly it is being done.
    In my situation, we are being told we are getting 
everything. In Ms. Buller's situation, she was being told she 
was not getting everything. And that is the concern. It should 
be the Inspectors General who are deciding what documents we 
need to do our work. The system that is set up for several of 
us now is that the agency is deciding what documents it thinks 
we should get for our work.
    Mr. Hurd. Well, as the chairman of the Information 
Technology Subcommittee of this committee, I am looking forward 
to having further conversations on this topic, something that 
is very important in order for you all to continue to do your 
jobs of making sure that the money we collect from citizens is 
being used effectively and efficiently. So appreciate your time 
and what you guys do.
    I yield back the rest of my time.
    Chairman Chaffetz. Thank the gentleman from Texas. And now 
recognize the gentleman from Wisconsin, Mr. Grothman, for 5 
minutes.
    Mr. Grothman. Thanks much.
    Chairman Chaffetz. If you can hit your button there, talk 
button there.
    Mr. Grothman. There we are. Okay. There we are.
    You talked about expanding--Mr. Horowitz, you talked about 
expanding IG authority and compelling more testimony. Can you 
give me examples of how that would benefit your work?
    Mr. Horowitz. So, for example, we often--we have often 
faced the problem where on the eve of an interview, employees 
have retired or resigned. At that point, we do not have 
access--we can ask them for a voluntary interview, but we can 
not compel them to testify, which they would have to do had 
they still been an employee. And what we want to ask them about 
is conduct while they were employed. And that is the difficulty 
we are facing.
    Mr. Grothman. Okay. Can you give me any specific example 
where you really wish you had that authority?
    Mr. Horowitz. Well, one that comes to mind, in the--one of 
the reviews we did after Fast and Furious, we wanted to 
interview the U.S. attorney from Arizona, who had already 
resigned from the Department, and he declined our voluntary 
request for an interview. We have no further ability to get 
that information. He had actually provided testimony to the 
Congress, I believe to this committee, and the committee then 
allowed us to see the testimony he had given to you, but that 
is how we got his information.
    Mr. Grothman. Okay. That applies when somebody is no longer 
in government service or no longer at their job, or what is 
the----
    Mr. Horowitz. Correct. it is someone who once was in 
government service, we want to talk to them about what they did 
while they were in government service, but then left the 
service. And at that point--we can subpoena those people, by 
the way, for their records, we just can not get their 
testimony.
    Mr. Grothman. Okay. And you still have the authority over 
them if they are working anywhere in the government or do they 
have to be in the executive branch or----
    Mr. Horowitz. If they are within the executive branch, we 
have had instances where we have gone to other IGs in other 
agencies and worked with them to compel the testimony, because 
they are still employed within the government, within the 
Federal Government.
    Mr. Grothman. Okay. Could you give me another example of 
appropriate boundaries you think where any more authority would 
be?
    Mr. Horowitz. Well, I think there needs to be some 
assurances, protections built in that were--that there are 
careful consideration before we are running out and subpoenaing 
individuals who are no longer with the government, for example. 
We have got to make sure that we are not compelling testimony 
where there is a Justice Department prosecution that could be 
impaired. So there are a couple of things that we need to do, 
in my personal opinion, to take those steps.
    Mr. Grothman. I do not know. Do you ever abuse your 
discretion now, you know?
    Mr. Horowitz. No. I agree. I mean, I think--but it is the 
same thing. For example, subpoena authority that my office has, 
there are certain categories of subpoenas that come to me 
personally for my personal review. There are others that we 
allow folks other than myself to authorize. And I think those 
are the kind of controls we--where we want to make sure exist 
so that it is elevated to a high level and there is careful 
consideration given to it.
    Mr. Grothman. Okay. We are almost done here. You are on the 
home stretch. I'll ask you--I'll ask you just a broad question 
for each one of the three of you.
    Obviously, you know, your testimony today is just scary, 
because, you know, we rely on you guys so much to make sure our 
government is functioning and it is functioning with integrity. 
Do you have any broad comments on how you see individuals 
responding today? I mean, you have all had a given period of 
time in this position, over a given period of years. Say today 
compared to 4 years ago, 8 years ago, what have you, do you see 
any trends going on?
    Mr. Elkins. I do not know if I would call it trends. Ever 
since I have been in this role, I have seen these issues that 
we are talking about today, they have always been there.
    So if there is any trend, the trend is is that having the 
support of this committee has made a positive difference, 
because to the extent that we are seeing arguments or 
obstructions, those instances are actually becoming fewer, and 
there is a sense from the agency head at least to want to talk 
about cooperation. That would not have happened but for your 
involvement. So that is the trend that I am seeing.
    Mr. Grothman. Thank you. Go ahead.
    Ms. Buller. From my perspective, the trend has been toward 
not--it--the staff of the Peace Corps has been very confused by 
the general counsel's opinion as to whether or not they can 
cooperate with us, whether they can give us any information, 
not just the information related to sexual assault. Before the 
opinion, we had a fairly good working relationship with the 
staff of the Peace Corps. We would have, as all IGs do, little 
times where they have questions about what we are doing, but 
they were readily answered and we got what we needed. it is 
changed now.
    Mr. Grothman. Thank you.
    Chairman Chaffetz. Thank the gentleman. I thank the 
gentleman. I will now recognize the gentleman from South 
Carolina, Mr. Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman. I want to take this 
opportunity to congratulate you and the ranking member on 
your--your new title, the ranking member's continuing title, 
and thank both of you for having this very important hearing, 
which was consistent with your work when you were on the 
committee before you were the chairman.
    I apologize to our three witnesses. There is a simultaneous 
hearing going on in Judiciary, which required my time, but 
before I left, Mr. Chairman, I made a note that perhaps at a 
future hearing, if you decided it was worthwhile, it might be 
productive for us to have the Department and have the Bureau 
and have the appropriators here so we can all kind of have this 
conversation at the same time. You know, for Mr. Horowitz to 
have a position that is not held by the Department of Justice, 
I don't know who would win that debate. Mr. Horowitz has a 
tendency to win most debates he is in, but I think it would be 
helpful for everybody to be at the table together.
    With that in mind, Mr. Horowitz, it is been a long time 
since I took a class on statutory construction, so I am going 
to ask you to help me with that. Here is the phrase: all 
records, reports, documents, or materials. What do you think 
the word ``all'' means?
    Mr. Horowitz. it is been a long time as well for me, but 
``all'' means everything, all.
    Mr. Gowdy. Now, you had a very distinguished career in the 
Southern District of New York. I think you were a white collar 
prosecutor. I suspect that when you were doing investigations, 
you wanted as many documents as you could have before you made 
a charging decision. Right?
    Mr. Horowitz. That is correct.
    Mr. Gowdy. And you worked for the Department of Justice, 
and I assume that when it came time for you to meet your 
discovery obligations to the defense, you did not kind of pick 
and choose which documents you wanted to turn over, you turned 
over all those that you were legally required to do so.
    Mr. Horowitz. That is correct. In fact, my practice was to 
invite the lawyers in and they could look through the file 
cabinets.
    Mr. Gowdy. An open file policy.
    Mr. Horowitz. Open file policy.
    Mr. Gowdy. All right. I want to ask you specifically with 
respect to material witness warrants, for those watching at 
home who do not know what that is and do not know why it is 
important, what is it and what do you want access to that you 
are not gaining access to?
    Mr. Horowitz. So material witness warrants are a process by 
which an agent and a prosecutor can go to a court to arrest an 
individual, not for committing a crime, but because they have 
relevant evidence that relates to a criminal investigation. 
That provision has various restrictions on it.
    One of the allegations that occurred after 9/11 was whether 
the Department and law enforcement components were abusing that 
authority to arrest witnesses. We undertook a review. We asked 
for information relating to grand jury proceedings, which is 
critical to understanding what is being done, because the very 
purpose of arresting the individual is to put them before the 
grand jury to get testimony. So in order to understand whether 
it is being abused or not, you need to know what's happening in 
the grand jury. We asked for that information back. This 
occurred right in the outset of some of these issues, 2010, 
2011. It took, if I recall correctly, nearly a year to get 
resolution on that so we could gain access to those grand jury 
records so we could evaluate whether the work was being done 
properly or whether we had concerns about it.
    Mr. Gowdy. There is an old adage that justice delayed is 
justice denied, and evidently we have bought in--we have bought 
into that as a country, because there is a Speedy Trial Act 
for--for prosecutors----
    Mr. Horowitz. That is correct.
    Mr. Gowdy [continuing]. So you can get the case to court.
    Mr. Horowitz. Right.
    Mr. Gowdy. Explain to us why it is not only important that 
you get the information, the ``all'' in that statute, but also 
get it in a timely fashion?
    Mr. Horowitz. We get allegations about waste, fraud, abuse, 
about misconduct, about whistleblower retaliation, just to give 
you some examples. We are reviewing those to see if, in fact, 
they are accurate. I think everyone would agree that if there 
are allegations of whistleblower retaliation that prove to be 
true, waste, fraud, abuse going on in the Justice Department, 
everybody would want to see that uncovered as quickly as 
possible so it could be remediated, so it could be addressed, 
so it could be fixed. That is the kind of delay that--that is 
the kind of impact we are having when we are delayed.
    Mr. Gowdy. I think it is important for the folks at home to 
understand that the three of you, Jason uses the word sometimes 
``auditor.'' Because he is not a lawyer, he uses words that are 
easier for him to understand. I think of you as being more 
independent, neutral arbiters. You do not work for anybody 
except for your fellow citizens. And I really--you know, I do 
not know whether I will live long enough to see a Republican 
administration or not, but this really should transcend 
politics. You cannot do your job without timely access to the 
documents. And I do not know the other two inspector generals 
as well as I know Mr. Horowitz, but you have a reputation of 
being a total, complete strait arrow who calls balls and 
strikes exactly as you see it.
    Mr. Horowitz. Sure.
    Mr. Gowdy. I am completely comfortable with you in your 
job. I'd be more comfortable if you had access to all the 
documents in a timely fashion. And I wish all three of you 
luck.
    Mr. Cummings. Will the gentleman yield?
    Mr. Gowdy. Certainly.
    Mr. Cummings. The--first of all, I think the gentleman's 
made some excellent points. And going back to your initial 
point with regard to having everybody in the room, I think that 
is a great idea. As a matter of fact, the chairman and I had 
talked about it a little earlier today, not on the record, that 
we were going to try to get these folks on the other side of 
this to get an understanding of what is happening there so that 
we could move forward, and the chairman has said that perhaps 
we would have a hearing, but we would bring those folks in, 
because I agree, we have got to get past this, we--and so I 
just wanted to make you aware of that.
    Mr. Gowdy. Well, I know that when you and Chairman Chaffetz 
put your minds in the same direction, there is nothing that 
cannot be accomplished. So I----
    Chairman Chaffetz. The gentleman's time----
    Mr. Gowdy [continuing]. Look forward to----
    Chairman Chaffetz [continuing]. Has expired. I now 
recognize the gentleman from Colorado, Mr. Buck, for 5 minutes.
    Mr. Buck. Thank you, Mr. Chairman.
    Mr. Horowitz, I wanted to visit with you a little bit. I 
may be the only Member of Congress that worked in an IGs office 
a number of years ago before I became a prosecutor, and I have 
a concern. Without seeing the IGs subpoena and without hearing 
from the other side, do your subpoenas, in any way, inhibit an 
investigation? In other words, you are all--you were also a 
prosecutor, you understand the discovery requirements that can 
be created if there is a parallel investigation, you understand 
the concerns with grand jury secrecy and the disclosure that 
must be made to a court. Do your--are your requests narrowly 
enough drawn so that they do not inhibit FBI prosecutions and 
counterintelligence, counterterrorism, very serious areas?
    Mr. Horowitz. Very fair question and something as a former 
prosecutor, I am acutely aware of. We do a couple of things to 
try and be careful in that regard. We tend not to undertake 
investigations or reviews while there are criminal cases 
ongoing or criminal prosecutions ongoing; we try to make sure 
where that is happening but we need to investigate, we do it in 
a manner that does not trample into an area that could harm the 
case. Best example I can give is, and I was not here at the 
time, but post-9/11, we were asked to look at the issues at the 
same time the Moussaoui prosecution was going forward. And 
everything I have heard from my staff is an example of, 
frankly, their longing for the good old days where we did work 
together in a manner that the FBI respected our ability to have 
to plow--move forward, get the work done, but we also 
understood and worked with the agency to make sure that we did 
it in a responsible, careful way, but never compromising our 
independence, never compromising our thoroughness and making 
sure we did everything to get to the bottom of issues.
    Mr. Buck. And a perfect example might be a subpoena for--a 
grand jury subpoena for financial records. We would typically 
ask for 3 or 4 years of financial records, and then get a 
monthly statement and then go through the monthly statement and 
ask for specific items that we are looking for.
    Do you have that relationship with the Bureau at this point 
where you can actually ask for a broader area to go through 
specifically and say this is what we are really after, can you 
help us, or is that something that you do not want to do? Does 
that give away your investigation?
    Mr. Horowitz. No. We have had that discussion. Indeed, I 
will give you a good example. Just recently with the DEA, and 
Section 218, we had a deadline approaching, I talked with the 
administrator, I talked with an associate in the Deputy 
Attorney General's Office with constructive ideas on how to 
make sure we saw and had access to the information we needed to 
assure ourselves that we were getting that, but then allow them 
to keep custody, take custody of the records that were 
unrelated and were not of interest to us going forward so that 
we could make sure that we had satisfied our needs in terms of 
thoroughness, review, et cetera, but also respecting their 
concerns about how the records were maintained and stored and 
kept.
    And those are the kinds of dialogs that should be 
occurring; not can we get access, but how do we make sure our 
access is done in a manner that is consistent with our 
independence, consistent with your expectations of what we need 
to do to get to the bottom of issues, but also understanding 
that there are countervailing issues and concerns out there.
    Mr. Buck. With the short time I have left, I want to ask a 
question of the whole panel. And you mentioned the word 
``independence.'' From the agency's perspective, often it is 
not independence, it is a thorn in their side. What you 
discover may embarrass them, what you discover may be something 
that they--that is turned around in the press and embarrasses 
them in a way that indicates that they are not doing their job 
properly, or it could be used for political purposes by others.
    How do we overcome that issue? And I throw this open. How 
do we--how do we really address the--what we all want, which is 
achieving an efficient and accountable government?
    Mr. Elkins. I think it boils down to trust ultimately. If 
the two parties trust that we are all on the same page--because 
at the end of the day, we are all on the same page. You know, 
we all work for an agency, and the mission of the agency is our 
mission. For EPA, it is to protect public health and the 
environment. That is my job to do that as well. But my job is a 
little different, because I am focused on identifying where 
funds are not being used to the full extent and then making 
recommendations that they can. So it really kind of boils down 
to trust. If you have got the trust in the relationship, things 
can work out. If you do not have trust, it is going to be 
rocky.
    Mr. Buck. I yield.
    Chairman Chaffetz. Thank you. Thank you. Well said. I now 
recognize the gentleman, Mr. Cummings from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank all of you for being here today. You know, when I was 
sitting here listening to you all, I could not help but think 
about when I was teaching my--one of my sisters to drive. And 
so she is driving along and I am sitting in the driver's seat--
I mean, in the passenger's seat, and a man steps out and she 
almost hits him. And I stepped on her foot, literally. You 
know, I put my foot on--on the brake, and I said, ``Why did you 
do that?'' And she said, ``He should not have been there. I 
said, He was there.''
    My point is is that, you know, we do have a problem here, 
and that is why I have spent so much time, and the chairman and 
our committee trying to help resolve the problem, because we do 
have a problem. So on the one hand, hopefully we get to some 
type of permanent solution, but in the meantime, we want to do 
everything in our power to help you do your jobs.
    And I understand the frustration. I really do. I understand 
you have your--you've got the IG law, which seems to be very 
clear, but on the other hand, I have to believe that there are 
people on the other side of these arguments who might make very 
strong arguments saying that they are trying to obey the law 
and trying to do what they believe is right. I have asked you, 
I asked you all earlier whether you felt that somebody was 
trying to hide something and all that, and you basically said 
no. So--so we have got to get past this.
    I just want to commit to you that I'm--I am committed to 
both--both sides, in other words, to both avenues: one, to do 
whatever we have to do right now to get you where you have got 
to go and at the same time trying to come up with a permanent 
solution. I think we have got to do both. I do not think that 
we can stand around and not try to do something to help you get 
past some of these immediate problems that you are 
experiencing.
    And, again, I want to--I want you all to do your jobs. You 
have very, very important jobs. I mean, we sit here, and I know 
the chairman will agree with me, there are many times we get 
very frustrated trying to figure out how do we make sure that 
government does what government is supposed to do. And then--
you know, and then--so the now is--now we are at a point where 
we--we've got to try to figure out how can we get these issues 
resolved as fast as possible.
    It is going to be interesting to hear the other side. I 
want to hear what they have got to say. I am absolutely 
curious, Mr. Horowitz, as to why the same things that you are 
requesting that you used to be able to get now you can not get 
them. I am curious. I want to know that. I really do.
    I also do not want us to move away from what Ms. Norton 
said. It may be a situation where there have been some things 
that have changed. I do not know. I thought maybe it was 
because of 9/11, but this stuff just happened. So--I mean, it 
started in 2010, right?
    Mr. Horowitz. [no verbal response.]
    Mr. Cummings. So, again, and I'm saying to the departments 
that are listening to us today, get ready, because we want 
maximum cooperation with the IGs, but we also want everybody to 
be able to do their job in an effective and efficient manner.
    So, again, I want to thank all of you. I want to make sure 
that, not just the witnesses, but all the IGs who have taken 
the time out to be here today, I want to thank you for making a 
difference in our country. I know that many of you all get--
have frustrations, but the fact is that you all are making a 
big, big difference, and we want to help you make an even 
bigger difference. And may God bless you and God bless all of 
those who work with you and support you. Thank you very much.
    Chairman Chaffetz. I thank the gentleman. And I want to 
echo and--the sentiment that you feel, I think, on both sides 
of the aisle. We truly do appreciate the good work, the hard 
work, the diligent work that is done within the IG community. 
We have more than 13,000 people who dedicate their time and 
their lives. They are patriotic Americans. They're trying to 
root out the waste, the fraud, the abuse, the bad apples that 
might be there, and for that, we thank you and appreciate that. 
I know a lot of you work for a long period of time and wonder 
does anybody pay attention to that, does anybody read that, and 
I assure you that it is of the utmost importance.
    As I said at the beginning, if you can not do your job, 
then we can not do our job in Congress. And we rely so heavily 
on your perspective, your non-partisan view of the world and 
the objective viewpoint that you take. And to that extent, I 
hope you all carry back how much we love, care and appreciate 
those that work day in and day out.
    So this has been a bit of a long hearing, and this 
committee now stands adjourned. Thank you.
    [Whereupon, at 1:13 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
